No. ______
IN THE SUPREME COURT OF THE UNITED STATES
____________________
RICHARD NATOFSKY
Petitioner,
v.
THE CITY OF NEW YORK,
Respondent.
_________________
APPENDIX OF LOWER COURT OPINIONS TO APPLICATION FOR
EXTENSION OF TIME TO FILE A PETITION FOR WRIT OF CERTIORARI

INDEX TO APPENDIX
District Court Judgment………………………………………………….Appendix A
Second Circuit Decision…………………………………………………..Appendix B
Second Circuit En Banc Denial……………….………………………...Appendix C

APPENDIX A

1

9/20/2019

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6…

Lexis Advance®

Research

Document: Natofsky v. City of New York, 2017 U.S. Dist. LEXIS 127289

Natofsky v. City of New York, 2017 U.S. Dist. LEXIS 127289
Copy Citation
United States District Court for the Southern District of New York
August 8, 2017, Decided
14 Civ. 5498 (NRB)
Reporter
2017 U.S. Dist. LEXIS 127289 *

RICHARD NATOFSKY, Plaintiff, - against - THE CITY OF NEW YORK, SUSAN POGODA, SHAHEEN ULON, MARK PETERS, and JOHN and JANE DOE,
Defendants.

Subsequent History: Motion denied by Natofsky v. City of New York, 2018 U.S. Dist. LEXIS 16836 (S.D.N.Y., Jan. 23, 2018)
Affirmed by, Motion denied by, Motion granted by Natofsky v. City of New York, 2019 U.S. App. LEXIS 11310 (2d Cir. N.Y., Apr. 18, 2019)

Core Terms
email, salary, performance evaluation, demotion, disability, alleges, quotation, marks, adverse employment action, retaliation, human resources,
Budget, prima facie case, Staff, asserts, pretext, no evidence, non-discriminatory, reorganization, arrive, protected activity, summary judgment,
discriminatory, alterations, Memorandum, requests, reasons, accommodate, vacation, cubicle

Case Summary

Overview
HOLDINGS: [1]-The employee failed to make a prima facie case of disability discrimination under the Rehabilitation Act as to the initial denial of
his vacation requests and a request that he arrive to work at a later time than he preferred because he did not suffer adverse employment
actions; [2]-The employee's disability discrimination claim failed as to a negative performance evaluation because defendants, the employer and
superiors, produced evidence that the employee was in fact a poor performer, and the employee failed to provide sufficient evidence that poor
work performance was, more likely than not, a pretext for an adverse action that was taken solely due to discrimination; [3]-The employee
failed to raise a triable issue that his demotion and attendant salary cut were solely motivated by disability discrimination as required under the
Rehabilitation Act.

Outcome
Motion granted as to Rehabilitation Act claims. State claims dismissed without prejudice to their re-filing in state court.

LexisNexis® Headnotes

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6s39k&prid=a… 1/10

9/20/2019

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6…

Counsel: [*1] For Richard Natofsky, Plaintiff: Samuel Okwudili Maduegbuna

, LEAD ATTORNEY, William W Cowles, II, Maduegbuna Cooper LLP

,

New York, NY.

For The City Of New York, Susan Pogoda

, Shaheen Ulon, Mark Peters, John and Jane Doe

, said names being fictitious, the persons intended being

those who aided and abetted the unlawful conduct of the named defendants, Defendants: Maxwell Douglas Leighton
City Law Department, New York, NY; Lawrence John Profeta

Judges: NAOMI REICE BUCHWALD

, LEAD ATTORNEY, New York

, New York City Office of Corporation Counsel, New York, NY.

, UNITED STATES DISTRICT JUDGE.

Opinion by: NAOMI REICE BUCHWALD

Opinion

MEMORANDUM AND ORDER
NAOMI REICE BUCHWALD
UNITED STATES DISTRICT JUDGE
Plaintiff Richard Natofsky brings this action against defendants City of New York, Susan Pogoda , Shaheen Ulon, Mark Peters, and unidentified John
and Jane Does alleging claims of discrimination and retaliation in violation of the Rehabilitation Act, 29 U.S.C. § 701 et seq., the New York Human
Rights Law ("NYHRL"), N.Y. Exec. Law § 290 et seq., and the New York City Human Rights Law ("NYCHRL"), New York City Administrative Code § 8101 et seq. Plaintiff alleges that the defendants, who were his employer and superiors, discriminated against him on the bases of age and disability
and retaliated against [*2] him for engaging in activity protected by law. The defendants brought a motion for summary judgment on all of plaintiff's
claims. For the reasons stated below, the defendants' motion is granted as to the Rehabilitation Act claims. The Court declines to exercise pendent
jurisdiction over the NYHRL and NYCHRL claims and dismisses them without prejudice to their re-filing in state court.

I. BACKGROUND
The following facts are taken from the parties' Local Rule 56.1 Statements. Because we do not address Natofsky's state and city law age
discrimination claims in this opinion, the facts pertinent to those allegations are omitted from our recital.
Plaintiff Natofsky has a severe hearing impairment due to nerve damage that he suffered as an infant. Defs.' 56.1 Stmt. ¶ 2 (ECF No. 45); Pl.'s 56.1
Stmt. ¶ 171 (ECF No. 50). Although Natofsky wears hearing aids, they do not fully compensate for the hearing loss; Natofsky must also focus intently
on a person who is speaking in order to read lips. Pl.'s 56.1 Stmt. ¶¶ 173, 176. In addition, Natofsky speaks imperfectly and more slowly than the
average person. Pl.'s 56.1 Stmt. ¶ 175.
From December 2012 until December 2014, Natofsky was employed by the New York City Department [*3] of Investigation ("DOI"). Defs.' 56.1
Stmt. ¶ 1. At the beginning of his tenure at DOI, Natofsky's title was Director of Human Resources and Budget and his salary was $125,000 per year.
Defs.' 56.1 Stmt. ¶ 21. Natofsky reported to defendant Shaheen Ulon, Deputy Commissioner of Administration. Defs.' 56.1 Stmt. ¶ 23. The head of
DOT, Commissioner Rose Gill Hearn, served under then-Mayor Michael Bloomberg. Defs.' 56.1 Stmt. ¶ 34.
In December 2012, Natofsky first informed Ulon that he had a severe hearing impairment and consequently might have trouble hearing her; that she
had to face him when speaking; and that background noise would make hearing more difficult for him. Pl.'s 56.1 Stmt. ¶ 26.
The first three months of Natofsky's employment appear to have passed without much incident. However, sometime in or about March 2013, Ulon
asked Natofsky to "follow up on e-mails more quickly" because Natofsky "didn't respond as quickly as the issues needed to be addressed." Defs.' 56.1
Stmt. ¶ 28. In response, on March 25, 2013, Natofsky wrote an email to Ulon titled "Follow-up: March 22 Discussion," which said in part:
I would also like to give you a better understanding of my hearing loss. I have [*4] a severe hearing loss that equates to an 85% loss
of hearing in both ears. I am dependant [sic] on my hearing aids to hear, but my hearing with the hearing aids it [sic] is not the same as
that of a person with normal hearing. Hearing does not come naturally to me even with the usage of hearing aids. Hearing is something I
have to focus on and actually "do", contrary to others with normal hearing. Therefore, I am not able to listen and do something else,
such as writing or reading emails. When I am listening to someone speak, I need to concentrate and at times I read a person's lips. Even
so, there will be occasions that I miss something or may hear something incorrectly. I put an extraordinary effort into listening and
cannot multi task while I am doing that.
As for responding to Executive Staff emails immediately, I believe that all my emails are responded to in a timely manner. They are
answered as soon as I am able to and unless there are extenuating circumstances, the emails are answered before the end of a day. I
realize that everyone believes his or her issue is the priority. I suggest that if someone has an extremely urgent or time sensitive issue,
he or she contact [secretary] [*5] Phyllis so that she can alert me. If some of the emails I send to others were answered in a timelier
manner, it would make my job easier. Sometimes I have to wait for days for a response and need to send follow up emails. I am often
waiting for information necessary for me to complete something and this slows down the processing of work assignments.
Leighton Decl. Ex. D (ECF No. 43). After this email, Ulon and Natofsky had no further discussion of the topic. Pl.'s 56.1 Stmt. ¶ 28(c).
In June 2013, Ulon made two additional requests of Natofsky. First, she asked Natofsky to arrive at work between 9:00 a.m. and 10:00 a.m., rather
than between 8:00 a.m. and 8:30 a.m. as was his practice. Defs.' 56.1 Stmt. ¶ 29. Second, after Natofsky requested specific dates in the summer to
take his annual leave, Ulon asked Natofsky to "submit leave requests that are longer in length, but occur less frequently." Defs.' 56.1 Stmt. ¶ 32.
Upset by these requests, Natofsky contacted Commissioner Gill Hearn. Pl.'s 56.1 Stmt. ¶ 31(e); Defs.' 56.1 Stmt. ¶ 34. Natofsky explained to Gill
Hearn that his early arrival to work allowed him to catch up on emails that he could not respond to while in meetings, and that [*6] Ulon did not
understand his "special needs in terms of hearing." Pl.'s 56.1 Stmt. ¶ 34. Gill Hearn then met with Ulon to discuss the requests. Defs.' 56.1 Stmt. ¶¶
35, 38. The parties dispute whether Gill Hearn and Ulon discussed Natofsky's disability at this meeting. Defs.' 56.1 Stmt. ¶ 36; Pl.'s 56.1 Stmt. ¶ 36.
Defendants do assert that Gill Hearn and Ulon discussed Ulon's concerns with Natofsky's work performance, and plaintiff neither disputes this
assertion nor offers evidence to the contrary. Defs.' 56.1 Stmt. ¶ 37; Pl.'s 56.1 Stmt. ¶ 37. In any event, it is undisputed that after the meeting
between Gill Hearn and Ulon, Ulon permitted Natofsky to continue arriving to work at his usual time and to take his leave as requested. Defs.' 56.1
Stmt. ¶ 38; Pl.'s 56.1 Stmt. ¶ 38.
In November 2013, Bill de Blasio was elected as the new mayor of New York City. 1

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6s39k&prid=a… 2/10

9/20/2019

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6…

In December 2013, Natofsky received two awards at a departmental ceremony. Pl.'s 56.1 Stmt. ¶ 46. The first award, which was given to three
people that year at DOI, was for going above and beyond in the recipient's job performance. Pl.'s 56.1 Stmt. ¶ 46(b). Gill Hearn gave Natofsky [*7]
this award. Defs.' 56.1 Stmt. ¶ 160. The second award, which was given to most of DOI's 200 employees, was for a good record of performance. Pl.'s
56.1 Stmt. ¶ 46(c). On December 31, 2013, Gill Hearn wrote a memorandum to Natofsky titled "Salary Increase," which said, "It is with pleasure that
I inform you that effective Monday, January 6, 2014 that you have been given a salary increase of $4,000 in recognition of your fine performance of
tasks related to Budget and Human Resources. Your new base salary will be $129,000 per annum greatly appreciate your commitment and dedication
to DOI." Leighton Decl. Ex. W at EMAIL002040.
At the end of 2013, with the mayoral transition from Michael Bloomberg to Bill de Blasio, Gill Hearn left her job as DOI's Commissioner. Defs.' 56.1
Stmt. ¶ 47. Effective January 1, 2014, Victor Olds became DOI's "Interim or Acting Commissioner." Defs.' 56.1 Stmt. ¶ 48. In late February 2014,
Olds was replaced by the new Commissioner of DOI, defendant Mark Peters. Defs.' 56.1 Stmt. ¶ 49. Peters appointed defendant Susan Pogoda as
DOI's Chief of Staff and Deputy Commissioner for Agency Operations. Defs.' 56.1 Stmt. ¶ 52. During this time, Natofsky retained his title [*8] as
Director of Human Resources and Budget and continued to report to Ulon.
Upon their arrival at DOT, Peters tasked Pogoda with assessing whether certain units within DOI should be reorganized. Defs.' 56.1 Stmt. ¶¶ 62, 64.
While the timeline is not clear, around this time Pagoda met with Ulon to discuss all of Ulon's direct reports, including Natofsky. Defs.' 56.1 Stmt. ¶
68. 2
According to Ulon's uncontroverted testimony, Pogoda "expressed some concern and said that she would be moving various people around
and making some structural changes." Defs.' 56.1 Stmt. ¶ 70. As to Natofsky's combined position of Director of Human Resources and Budget, Peters
and Pogoda developed the view that it would be more appropriate for the departmental areas to be split and headed by separate individuals
because of the need for "checks and balances. Budget handles the money, HR handles the hiring of people." Defs.' 56.1 Stmt. ¶¶ 77-78.
On February 21, 2014, Pogoda met Natofsky for the first time during which, according to Natofsky, Pogoda kept staring at his ears and carefully
observing him when he spoke. Pl.'s 56.1 Stmt. ¶ 68(a), 179. The next day, a Saturday, Pogoda sent Ulon an email titled "Richard [*9] Natofsky"
and asked for his resume along with the resume of the new Director of Fiscal Services. Pl.'s 56.1 Stmt. ¶ 68(b). Natofsky alleges that on or about
March 6, 2014, he told Pogoda of his hearing disability and that in response Pogoda "shook her head in disgust and rolled her eyes." Pl.'s 56.1
Stmt. ¶¶ 185-86, 200. Natofsky further alleges that throughout March and April, Pogoda told Natofsky that he needed to speak more quickly and
clearly, and that she was impatient with him when he was speaking. Pl.'s 56.1 Stmt. ¶ 203.
Sometime in March 2014, Commissioner Peters had at least one meeting with Pogoda , Ulon, and Natofsky in which Peters requested information on
the number of additional people he could hire based on the current budget. Defs.' 56.1 Stmt. ¶¶ 67, 72; Pl.'s 56.1 Stmt. ¶¶ 67, 72. After Ulon and
Natofsky were unable to provide the requested information during the meeting (or meetings), Peters expressed his frustration with them to Pogoda .
Defs.' 56.1 Stmt. ¶ 72. Natofsky asserts that he was eventually able to provide Peters with the requested information. Pl.'s 56.1 Stmt. ¶ 74. On March
3, 2014, Pogoda wrote in an email to a DOI Associate Commissioner, regarding an unrelated [*10] issue, that "Shaheen [Ulon] and Richard
[Natofsky] are clueless." Defs.' 56.1 Stmt. ¶ 73.
On March 10, 2014, Ulon wrote to Natofsky a memorandum regarding some performance deficiencies (the "Counseling Memorandum"). She wrote:
"As a follow-up to our conversation today and on previous occasions, please be sure to carefully review and edit the work of your staff on routine HR
assignments, including the new employee welcome letters and job postings. There have been numerous, repeated grammatical/typographical and
other errors on this type of correspondence. As HR Director, you must take the responsibility for the work of your staff. Taking responsibility for the
work of your staff entails performing a careful review of the documents before they are distributed to other DOI staff for review." Defs.' 56.1 Stmt. ¶
71.
On March 27, 2014, Pogoda expressed to Ulon her concern that there existed few written policies and procedures and that the forms that were
typically used in the department were •outdated, incorrect, and confusing. Defs.' 56.1 Stmt. ¶ 75.
On April 2, 2014, Pogoda allegedly told Natofsky that he had nothing to worry about at DOI, that he would be able to "spread his wings"
once [*11] Ulon was gone, that Ulon's performance evaluations were "flaky," that Ulon needed to take responsibility for her own actions, and that
Natofsky would keep his position and salary. Pl.'s 56.1 Stmt. ¶¶ 212-13. Pogoda denies making these statements. Pl.'s 56.1 Stmt. ¶¶ 214-15, 21719.
In April 2014, Pogoda met with Ulon and told Ulon that the "commissioner only wanted two deputies at that point, a first deputy and a deputy
commissioner for agency operations. Since Ms. Ulon was a deputy commissioner, that role now in the, reorganization would not be available, however,
there was a role in the newly created NYPD IG [New York Police Department Inspector General] that needed a director to liaison with DOI." Defs.'
56.1 Stmt. ¶ 81. Rather than accept the other position, Ulon resigned from DOI effective May 1, 2014. Defs.' 56.1 Stmt. ¶¶ 79, 84.
On May 1, 2014 -- Ulon's last day -- Ulon provided Natofsky with a formal written evaluation of his work from January 1, 2013 to December 31, 2013
(the "Performance Evaluation"). Defs.' 56.1 Stmt. ¶ 39. Ulon rated Natofsky's 2013 overall performance a two out of five (qualitatively called "Needs
Improvement"). Defs.' 56.1 Stmt. ¶ 42; Leighton Decl. Ex. [*12] H. Of the 14 categories of evaluation, Ulon rated Natofsky three out of five ("Fully
Meets Requirements") in seven categories and two out of five ("Needs Improvement") in seven categories. 3
Id. For each of the seven categories
rated "Needs Improvement," Ulon wrote a short explanation. See Leighton Decl. Ex. H. Under the category "Other Managerial Accountabilities," Ulon
wrote:
HR and Budget tasks have not been completed in a timely manner, which has prompted regular follow-up from the inquiring individual or
entity - Deputy Commission for Administration, DOI staff, OMB, DCAS, etc.
Email responsiveness needs improvement. This has been pointed out by myself and other members of the Executive Staff that haven't
receive [sic] timely responses to emails.
Deference to supervisor and ability to take direction - Richard has questioned my direction on a number of occasions, and this has been
pointed out by other Executive Staff members.
Id. at 4.
On May 8, 2014, Natofsky appealed his performance evaluation to Pogoda
following arguments:

. Leighton Decl. Ex. V. Natofsky opened the Evaluation Appeal with the

I strongly feel that the performance evaluation prepared by Shaheen Ulon depicts an inaccurate and unfair [*13] assessment of my
work performance. I am supporting this statement by providing information and correspondence herein this [sic] memorandum and
attached.
The performance evaluation is based on a job description that was never given to me. It along with my evaluation was presented to me
by Shaheen Ulon during her last hour of employment with the Department of Investigation (DOI) on May 1, 2014. As per Citywide
protocol, this information should be presented to all employees during the first month or so of their employ with the Department of
Investigation (DOI) and/or at the beginning of the evaluation period. Furthermore, the tasks and expectations must be agreed upon
between a supervisor and subordinate before proceeding further. Shaheen Ulon was fully aware of this requirement as I discussed it with
her numerous times. The only job description in my possession relates to the Human Resources/Director position (job posting) of which I
applied for [sic]. Lastly, the performance evaluation lacks substantiation pertaining to the criticisms. The departure of Shaheen Ulon has
hindered and violated my ability and legal right to have a meaningful appeal. . . .
Id. Natofsky then launched into a [*14] list of his accomplishments and a line-by-line rebuttal of the Performance 'Evaluation. On the third page of
the rebuttal, in response to the comment in the Performance Evaluation that "Email responsiveness needs improvement," Natofsky wrote:
The only person who pointed out needed [sic] improvement with my e-mail response was Shaheen Ulon. One attached email
correspondence denotes that I have a severe hearing loss which hinders my ability to immediately respond to emails during meetings

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6s39k&prid=a… 3/10

9/20/2019

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6…
and face to face discussions. Furthermore, many of Shaheen Ulon's mails were redundant thereby asking for responses which were
previously provided.

Id.
Sometime in the spring of 2014, and after discussion with Pagoda, Peters made the decision to reassign Natofsky from his position. Peters testified,
"The decision was ultimately mine. . . . Susan [Pagoda] certainly discussed it with me before the decision was made and I approved it and so it was
certainly my decision." Defs.' 56.1 Stmt. ¶ 109. Natofsky admits that the decision was Peters's. Pl.'s 56.1 Stmt. ¶ 109. By letter dated May 20, 2014,
Pogoda wrote to Natofsky:
The Human Resources and Budget Units are being reorganized. As such, effective today, [*15] May 20, 2014 you will serve in your
competitive civil service title of Associate Staff Analyst at a salary of $68,466 per annum in the Human Resources Unit of the
Administrative Division. Your office title will be Human Resources Generalist.
Leighton Decl. Ex. S. The parties dispute how to characterize this event: plaintiff calls it a "demotion," while the defendants call it a "reassignment."
As plaintiff is the non-movant, we will use the term "demotion" for purposes of this opinion.
On May 28, 2014, Natofsky wrote in an email to Peters and Pagoda:
I totally disagree with the rationale for the decision to demote me, change my title and drastically reduce my salary. By all accounts it is
illegitimate and contrary to law. . . . Without accepting this unjustified change in my employment status, and bearing in mind the
strategic role the Director, Human Resources and Budget play [sic] within our agency, I am asking that you clarify and provide guidance
to me regarding my interim functions.
Leighton Decl. Ex. T. In a response email Pogoda

wrote, "As per the May 20, 2014 letter and our discussion on May 23rd, 2014 you were returned

to your competitive civil service title of Associate Staff [*16] Analyst due to an ongoing reorganization of the Human Resources and Budget Units."
Id. The new Assistant Commissioner of Administration, Edgardo Rivera, temporarily assumed Natofsky's former budget functions, and the new
Director of Administration for the Office of the Inspector General for the New York Police Department, Shayvonne Nathaniel, temporarily assumed
Natofsky's former human resources functions. Defs.' 56.1 Stmt. ¶¶ 85, 117, 120, 121. DOI eventually hired a new Director of Budget and Director of
Human Resources. Defs.' 56.1 Stmt. ¶¶ 120, 122.
On June 6, 2014, Pogoda informed Natofsky that he would be moved from his private office to a cubicle. Maduegbuna Decl. Ex. 37 (ECF No. 49). On
June 16, 2014, Natofsky replied that he needed assistance in moving his items because he was "currently under a doctor's care" and had "physical
restrictions which include lifting and carrying." Id. The parties do not offer evidence showing whether Natofsky received the assistance. Natofsky was
moved to a cubicle on or about June 20, 2014. Id. The cubicle was in a high-traffic, high-volume area, and the cubicle had been previously used by
his former secretary. Pl.'s 56.1 Stmt. ¶¶ 259-60. When [*17] Natofsky advised Rivera of the noise and congestion of the cubicle, Natofsky was
moved to a different cubicle location. Defs.' 56.1 Stmt. ¶ 146.
On June 17, 2014, Natofsky complained to Rivera that he suddenly began receiving paper checks instead of direct deposit. Pl.'s 56.1 Stmt. ¶ 272.
On June 18, 2014, Natofsky appealed his "demotion and reduction of salary" to the New York City Department of Citywide Administrative Services
("DCAS"). Leighton Decl. Ex. W. In that appeal he wrote:
I write to appeal my demotion and reduction of my salary . . . in violation of the New York City Personnel Services Bulletin, Article 3,
Section 320-R (Mayor's Personnel Order No. 78/9), relating to demotion of managers (attached). . . .
I was given no justifiable reason as to why my salary was so drastically cut and I was demoted. There was no justifiable reason for these
actions . . . . The available evidence strongly indicates that I was so singled out and treated based on a number of unlawful
considerations.
By all accounts the decision to single me out and treat me in this manner is illegitimate and contrary to law. I have made this known to
Susan Pogoda and DOI Commissioner Peters and have stated in writing that I totally disagree with the rationale for the
decision [*18] to demote me, change my title and drastically reduce my salary as it is unlawful. Despite my protest, they have refused
to change their minds and have maintained their unlawful position. . . .
When you look into this matter, you will find that the procedure that was put in place by DCAS and the City of New York to deal with just
this type of situation was not followed by Susan Pogoda , Commissioner Peters and other DOI officials.
I am therefore respectfully requesting that the almost 50% pay cut and my demotion be rescinded retroactively based upon DOI's failure
to follow the required procedure in the Personnel Services Bulletin (copy attached) and I be reinstated to my previous managerial
position.
Leighton Decl. Ex. W. Natofsky did not send a copy of the appeal to DOI. Defs.' 56.1 Stmt. ¶ 129; Pl.'s 56.1 Stmt. ¶ 129.
On June 23, 2014, DCAS wrote to Rivera, copying Pogoda and others, "In general, managers should not lose more than 20% of their salary when
they are reassigned to a lower managerial level or to their permanent leave line. However, in Mr. Natofsky's case, a 20% reduction from $129,000
would result in a salary above the maximum for Associate Staff Analyst, his permanent title. [*19] Therefore, the salary reduction % needs to be
increased so that he is paid no more than the maximum, which is $88,649. Please correct his salary from $68,466 to $88,649." Leighton Decl. Ex. X.
OCAS informed Natofsky on June 27, 2014 that his salary would be adjusted accordingly. Defs.' 56.1 Stmt. ¶ 132. Although a salary adjustment
typically takes-24 hours to process, Pl.'s 56.1 Stmt. ¶ 266, one month passed before Natofsky's salary was adjusted in the system, Defs.' 56.1 Stmt.
¶ 137.
On June 29 and 30, 2014, Pogoda questioned Natofsky regarding, an incident in which an employee's personnel file went missing and was found in
an unlocked drawer in Natofsky's work area. Defs.' 56.1 Stmt. ¶ 147; Leighton Decl. Ex. DD.
On July 22, 2014, Natofsky filed the instant lawsuit. On the same day, Pogoda and Rivera instructed Natofsky to include the title of "Human
Resources Generalist" in his email signature. Pl.'s 56.1 Stmt. ¶ 274. On July 23, 2014, Natofsky's salary was adjusted in the system, on which date
Natofsky also received a lump sum payment of back pay. Defs.' 56.1 Stmt. ¶¶ 137-38.
On September 11, 2014, Pogoda

denied Natofsky's appeal of Ulon's May 1, 2014 Performance Evaluation. Pl.'s [*20] 56.1 Stmt. ¶ 281.

On September 2, 2014, Natofscy informed Nathaniel and another employee that, according to his union, he was entitled to longevity pay of $5,414.
Pl.'s 56.1 Stmt. ¶ 282. Receiving no response, he had to follow up on this request on October 1, 2014, and November 7, 2014. Pl.'s 56.1 Stmt. ¶¶
283-85.
Natofsky left DOI in December 2014. Defs.' 56.1 Stmt. ¶ 168. He returned to the agency at which he was formerly employed, the New York City
Department of Transportation, as an Operations and Budget Administrator with a salary of $100,437. Id.
On December 10, 2015, Natofsky emailed an employee at DOI stating that, according to his union, he was entitled to retroactive, pay for some of his
time at DOI. Pl.'s 56.1 Stmt. ¶ 293. Rivera denied the retroactive pay on January 8, 2016. Pl.'s 56.1 Stmt. ¶ 295. After a representative of Natofsky's
union explained to DOI why the request should have been granted, Rivera provided the retroactive pay. Pl.'s 56.1 Stmt. ¶¶ 298-99.

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6s39k&prid=a… 4/10

9/20/2019

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6…

Natofsky asserts the following claims: (1) a Rehabilitation Act claim against the City for disability discrimination; (2) a Rehabilitation Act claim against
the City for retaliation; (3) a NYHRL claim against all defendants [*21] for disability discrimination; (4) a NYCHRL claim against all defendants for
disability discrimination; (5) a NYHRL claim against all defendants for age discrimination; (6) a NYCHRL claim against all defendants for age
discrimination; (7) a NYHRL claim against all defendants for retaliation; and (8) a NYCHRL claim against all defendants for retaliation. 4

II. DISCUSSION

A. Standard for Summary Judgment
HN1 Summary judgment is granted where "the movant shows that there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law." Fed. R. Civ. P. 56(a). "A fact is material when it might affect the outcome of the suit under governing law," and "[a]n
issue of fact is genuine if the evidence is such that a reasonable jury could return a verdict for the nonmoving party." McCarthy v. Dun & Bradstreet
Corp., 482 F.3d 184, 202 (2d Cir. 2007) (internal quotation marks and citations omitted). "In assessing the record to determine whether there is a
genuine issue to be tried, we are required to resolve all ambiguities and draw all permissible factual inferences in favor of the party against whom
summary judgment is sought." Gorzynski v. JetBlue Airways Corp., 596 F.3d 93, 101 (2d Cir. 2010). Furthermore, "[t]he moving party bears the initial
burden of demonstrating 'the absence of a genuine issue of material fact.'" F.D.I.C. v. Great Am. Ins. Co., 607 F.3d 288, 292 (2d Cir. 2010)
(quoting [*22] Celotex Corp. v. Catrett, 477 U.S. 317, 323, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986)).
HN2 Although "a workplace discrimination case . . . usually require[s] an exploration into an employer's true motivation and intent for making a
particular employment decision," McMunn v. Mem'l Sloan-Kettering Cancer Ctr., No. 97 Civ. 5857 (NRB), 2000 U.S. Dist. LEXIS 13335, 2000 WL
1341398, at *2 (S.D.N.Y. Sept. 15, 2000), "summary judgment may be proper even in workplace discrimination cases . . . because 'the salutary
purposes of summary judgment -- avoiding protracted, expensive and harassing trials -- apply no less to discrimination cases than to other areas of
litigation,'" Campbell v. Cellco P'ship, 860 F. Supp. 2d 284, 294 (S.D.N.Y. 2012) (quoting Hongyan Lu v. Chase Inv. Servs. Corp., 412 F. App'x 413,
415 (2d Cir. 2011)). A plaintiff must produce evidence that rises above the level of conclusory allegations to defeat a motion for summary judgment,
and it is the court's responsibility to "distinguish between evidence that allows for a reasonable inference of discrimination and evidence that gives
rise to mere speculation and conjecture." Bickerstaff v. Vassar Coll., 196 F.3d 435, 448 (2d Cir. 1999).

B. Disability Discrimination Claims under the Rehabilitation Act
HN3 The Rehabilitation Act states: "No otherwise qualified individual . . . shall, solely by reason of her or his disability, be . . . subjected to
discrimination under any program or activity receiving Federal financial assistance . . . ." 29 U.S.C. § 794(a) (emphasis added). This statutory
language differentiates the Rehabilitation Act from other discrimination-related federal statutes in that [*23] it requires "proof that discrimination
was solely due to an individual's disability . . . ." Itzhaki v. Port Auth. of N.Y. & N.J., No. 15 Civ. 7093 (JMF), 2017 U.S. Dist. LEXIS 6394, 2017 WL
213808, at *3 (S.U.N.Y. Jan. 17, 2017) (internal quotation marks omitted). We also note that plaintiff asserts Rehabilitation Act claims only against
the City, as "claims under the Rehabilitation Act may not be brought against individuals, either in their personal or official capacity . . . ." Harris v.
Mills, 478 F. Supp. 2d 544, 547-48 (S.D.N.Y. 2007), aff'd, 572 F.3d 66 (2d Cir. 2009).
HN4 A plaintiff may defeat a defendant's motion for summary judgment in two ways. Either he may present "direct evidence of discrimination -- a
'smoking gun' attesting to a discriminatory intent," or he may proceed under the McDonnell Douglas burden-shifting framework. Holtz v. Rockefeller &
Co., 258 F.3d 62, 76 (2d Cir. 2001) (internal quotation marks omitted and alteration incorporated). Here, plaintiff proceeds under the latter. Under
either approach, however, the "ultimate issue" is whether the plaintiff has met his burden of proving that the adverse employment decision was
motivated by "an 'impermissible reason,' i.e., that there was discriminatory intent." Weisbecker v. Sayville Union Free Sch. Dist., 890 F. Supp. 2d 215,
231-32 (E.D.N.Y. 2012); see also Fields v. N.Y. State Office of Mental Retardation & Developmental Disabilities, 115 F.3d 116, 119 (2d Cir. 1997).
HN5 Under the McDonnell Douglas framework, "[a] plaintiff must establish a prima facie case; the employer must offer through the introduction of
admissible evidence a legitimate non-discriminatory reason for the [adverse employment [*24] action]; and the plaintiff must then produce
evidence and carry the burden of persuasion that the proffered reason is a pretext." McBride v. BIC Consumer Prod. Mfg. Co.,c, 96 (2d Cir. 2009)
(internal quotation marks omitted).
Plaintiff alleges two theories of disability discrimination. First, plaintiff alleges that he experienced disparate treatment due to his disability. Second,
plaintiff alleges that DOI failed to accommodate his disability. We address each of these theories in turn.

1. Disparate Treatment Claims
HN6 To make out a prima facie case, a plaintiff must show by a preponderance of the evidence that "(1) plaintiff's employer is subject to the
Rehabilitation Act; (2) plaintiff was disabled within the meaning of the Rehabilitation Act; (3) plaintiff was otherwise qualified to perform the essential
functions of [his] job, with or without reasonable accommodation; and (4) plaintiff suffered an adverse employment action because of [his] Quadir v.
N.Y. State Dep't of Labor, No. 13 Civ. 3327 (JPO), 2016 U.S. Dist. LEXIS 84632, 2016 WL 3633406, at *5 (S.D.N.Y. June 29, 2016) (internal quotation
marks omitted and alterations incorporated), aff'd, No. 16-2617, 691 Fed. Appx. 674, 2017 U.S. App. LEXIS 9755, 2017 WL 2399584 (2d Cir. June 2,
2017). "The requirements to establish a prima facie case are minimal, and a plaintiff's burden is therefore not onerous." Bucalo v. Shelter Island
Union Free Sch. Dist., 691 F.3d 119, 128 (2d Cir. 2012) (internal quotation marks and citations omitted).
HN7 At the second stage in the McDonnell Douglas framework, the defendants [*25] bear the "burden of producing evidence that the adverse
employment actions were taken for a legitimate, nondiscriminatory reason." Id. at 128-29 (internal quotation marks omitted). "This burden is one of
production, not persuasion." Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 142, 120 S. Ct. 2097, 147 L. Ed. 2d 105 (2000). "If the
defendant satisfies its burden of production, then the presumption raised by the prima facie case is rebutted and drops from the case." Bucalo, 691
F.3d at 120 (internal quotation marks omitted). Once the presumption is rebutted, the "sole remaining issue [is] discrimination vel non." Reeves, 530
U.S. at 143.
At the final stage, "the plaintiff must . . . come forward with evidence that the defendant's proffered, non-discriminatory reason is a mere pretext for
actual discrimination. The plaintiff must produce not simply some evidence, but sufficient evidence to support a rational finding that the legitimate,
non-discriminatory reasons proffered by the defendant were false, and that more likely than not discrimination was the real reason for the
employment action." Weinstock v. Columbia Univ., 224 F.3d 33, 42 (2d Cir. 2000) (internal quotation marks and citations omitted). "The plaintiff
retains the burden of persuasion." Texas Dep't of Cmty. Affairs v. Burdine, 450 U.S. 248, 256, 101 S. Ct. 1089, 67 L. Ed. 2d 207 (1981).
According to Natofsky, he experienced the following adverse employment actions: his requested vacation dates were initially denied; he was
asked [*26] to arrive to work at a later time than he preferred; he received a negative performance evaluation; he was demoted; and he
experienced a salary cut.

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6s39k&prid=a… 5/10

9/20/2019

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6…

a. Vacation Requests and Work Hours
HN8 "An adverse employment action is one which is more disruptive than a mere inconvenience or an alteration of job responsibilities. Examples of
materially adverse changes include termination of employment, a demotion evidenced by a decrease in wage or salary, a less distinguished title, a
material loss of benefits, significantly diminished material responsibilities, or other indices unique to a particular situation." Terry v. Ashcroft, 336 F.3d
128, 138 (2d Cir. 2003) (internal quotation marks and citation omitted); see also Vega v. Hempstead Union Free Sch. Dist., 801 F.3d 72, 89 (2d Cir.
2015).
Natofsky plainly did not suffer adverse employment actions when Ulon initially denied his vacation requests or when she asked him to arrive at work
at her preferred time. After a discussion with Gill Hearn, Ulon ultimately granted Natofsky's vacation requests and permitted him to continue arriving
to work at his preferred time. See Defs.' 56.1 Stmt. ¶ 38 ("Following her discussion with then-Commissioner Gill Hearn, Ms. Ulon granted plaintiff's
leave request and, as well, permitted him to continue to arrive at work at 8:00 a.m."); Pl.'s [*27] 56.1 Stmt. ¶ 38 ("Admitted."). Natofsky makes no
allegation that in the interim he missed an opportunity to take his vacation as requested or that he arrived at work at Ulon's preferred time.
Therefore, he did not experience any "adverse change in the terms and conditions of employment," Bowen-Hooks v. City of N.Y., 13 F. Supp. 3d 179,
211 (E.D.N.Y. 2014), material or otherwise, and he has failed to make a prima facie case as to these actions. 5

b. Performance Evaluation
Natofsky next alleges a claim based upon his negative Performance Action. HN9 "[N]egative evaluations alone, without any accompanying adverse
consequences, such as a demotion, diminution of wages, or other tangible loss, do not constitute adverse employment actions." Walder v. White
Plains Bd. of Educ., 738 F. Supp. 2d 483, 499 (S.D.N.Y. 2010). Defendants argue that the Performance Evaluation is not an adverse employment
action because it did not affect Peters's demotion decision. Defs.' Mem. of Law at 11 (ECF No. 44). Natofsky's only response is to argue that the
Performance Evaluation "could have influenced" the demotion decision because the final decision to demote Natofsky was made "sometime in April"
2014, and Ulon sent to Pogoda a draft of the Performance Evaluation on April 25, 2014. Pl.'s Opp'n at 5 (ECF No. 52); see Maduegbuna Decl. Ex.
16. Importantly, Natofsky never [*28] alleges that Peters saw the Performance Evaluation. Natofsky further never suggests why Peters would have
been influenced by an evaluation written by Ulon, who herself was let go during the reorganization. It is difficult to say under these circumstances
that the Performance Evaluation was "accompanied by" a demotion. Without deciding this issue, we will proceed to evaluate Natofsky's prima facie
case regarding the Performance Evaluation.
Natofsky's prima facie case is as follows. In March 2013, Ulan criticized Natofsky for his response time on emails. The day after that discussion,
Natofsky wrote to Ulon that because of his disability, he could not multitask on email during meetings. Natofsky proposed that in lieu of multitasking,
his-secretary could inform him of anything urgent that arose during meetings; there is no evidence that this proposal was agreed to or acted upon.
Over a year later, Natofsky received a negative performance review at least in part because his "[e]mail responsiveness needs improvement." Other
than an inference drawn from the words "email responsiveness," there is no evidence that Ulon was referring to the narrow email-responsiveness-inmeetings issue which relates [*29] to Natofsky's hearing disability, rather than a broader issue relating to the general timeliness of
Natofsky's.emails. 6
There is furthermore no other evidence from which to draw an inference that the Performance Evaluation was negative solely
because of Natofsky's disability. If Natofsky has made, out a prima facie case on the Performance Evaluation, he has done so just barely.
Assuming, without deciding, that Natofsky has made a prima facie case, the defendants have met their burden of production at the second stage.
HN10 "The court is not to pass judgment on the soundness or credibility of the reasons offered by defendants, so long as the reasons given are
'clear and specific.'" Schwartz v. York Coll., 06 Civ. 6754. (RRM)(LB), 2011 U.S. Dist. LEXIS 93495, 2011 WL 3667740 (E.D.N.Y. Aug. 22, 2011)
(quoting Mandell v. Cnty. of Suffolk, 316 F.3d 368, 381 (2d Cir. 2003)). Defendants produce documentary and testimonial evidence that Natofsky was
in fact a poor performer, Defs.' 56.1 Stmt. ¶¶ 37, 45, 71, 102-04, 106, 107, which is a sufficient nondiscriminatory reason for the negative
Performance Evaluation. See Auguste v. N.Y. Presbyterian Med. Ctr., 593 F. Supp. 2d 659, 666 (S.D.N.Y. 2009) (HN11 "[P]oor work performance
has often been recognized as a legitimate, non-discriminatory reason" for an employment action).
At the final stage, Natofsky offers a multitude of assertions regarding pretext. However, [*30] he has failed to provide sufficient evidence from which
a reasonable jury could find that "poor work performance" is, more likely than not, a pretext for an adverse action that was taken solely due to
discrimination.
Natofsky exerts a great deal of effort re-litigating the Performance Evaluation. First, he offers arguments as to why the defendants should not have
considered his performance poor. 7
Natofsky fails to appreciate that regardless of the actual quality of his performance, HN12 "[t]he mere fact
that plaintiff may disagree with his employer's actions or think that his behavior was justified does not raise an inference of pretext." Melman v.
Montefiore Med. .Ctr., 98 A.D.3d 107, 121, 946 N.Y.S.2d 27 (1st Dep't 2012) (internal quotation marks omitted and alterations •in corporated). In
other words, "[i]t matters not whether the employer's stated reason for the challenged action was a •good reason, a bad reason, or a petty one. What
matters is that the employer's stated reason for the action was nondiscriminatory." Id. (internal quotation marks omitted and alterations
incorporated).
Second, Natofsky asserts that Ulon "violated DOI policy by not giving Natofsky Tasks & Standards, despite his requests, and then improperly
evaluating Natofsky based on Tasks & Standards he [*31] had never seen or agreed to." Pl.'s Opp'n at 8. However, doing so does not support an
inference that he was discriminated against solely because of his disability., HN13 "[A]n employer's alleged failure to follow termination procedures
d[oes] not support a discrimination claim in the absence of evidence showing that the procedure was applied differently to protected and nonprotected employees." Forte v. Liquidnet Holdings, Inc., No. 14 Civ. 2185 (AT), 2015 U.S. Dist. LEXIS 136474, 2015 WL 5820976, at *10 (S.D.N.Y.
Sept. 30, 2015) (Offing Stanojev v. Ebasco Servs:, Inc., 643 F.2d 914, 923 (2d Cir. .1981)), aff'd, 675 Fed. Appx. 21, 2017 WL 104316 (2d Cir.
2017): Relatedly, Natofsky's assertion that Ulon failed to raise the email responsiveness issue between March 2013 and May 2014 or 'raise her other
criticisms with Natofsky before issuing his evaluation," Pl.'s Opp'n at 7, do not demonstrate pretext. See Forte, 2015 U.S. Dist. LEXIS 136474, 2015
WL 5820976, at *10 ("[E]ven assuming Defendants failed to provide progressive discipline, Plaintiff has not shown that such failure demonstrates
pretext with respect to Defendants' motivation for discharging Plaintiff."). We further note that the record shows - that Ulon did raise criticisms with
Natofsky before the May 2014 evaluation -- e.g., in the March 2014 Counseling Memorandum. Leighton Decl. Ex. L.
Other assertions of pretext also fail. One assertion, that "Pogoda told Natofsky that Ulon's evaluations were flaky and would be rejected," Pl.'s
Opp'n at 7, is conclusory [*32] and unintelligible. Another assertion in Natofsky's opposition brief, that "Gill Hearn instructed Ulon not to target
Natofsky," is wholly unsupported by the evidence to which Natofsky cites. 8
See Vt.-Teddy Bear Co., Inc. v. 1-800 Beargram Co., 373 F.3d 241, 244
(2d Cir. 2004) (the Court "must be satisfied that the citation to the evidence in the record supports the assertion"). Finally, Natofsky asserts that
pretext is established by his receipt of two awards and a merit pay increase from Gill Hearn at the end of 2013. But "differences between supervisors'
reviews of an employee's performance are generally insufficient to demonstrate pretext." Forte, 2015 U.S. Dist. LEXIS 136474, 2015 WL 5820976, at
*11. They would only suffice "when paired with other evidence demonstrating a discriminatory motive," id., and the evidence proffered -- including
the evidence in support of Natofsky's prima facie case -- simply does not rise to that level.
We have examined the entire record together, see Schnabel v. Abramson, 232 F.3d 83, 90 (2d Cir. 2000), and concluded Natofsky has fallen far short
of raising a friable issue that Ulon issued a negative Performance Evaluation motivated solely by disability discrimination.

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6s39k&prid=a… 6/10

9/20/2019

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6…

c. Demotion and Salary Cut
On May 20, 2014, Natofsky received a letter Stating that he had been demoted and his salary cut accordingly. His original [*33] job position was
ultimately broken out into two positions and filled by two non-disabled employees. Natofsky has met his burden at the first stage of the McDonnell
Douglas framework because HN14 "the mere fact that a plaintiff was replaced by someone outside the protected class will suffice for the required
inference of discrimination at the prima facie stage . . . ." Zimmermann v. Assocs. First Capital Corp., 251 F.3d 376, 381 (2d Cir. 2001).
In response, defendants produce evidence that Natofsky was reassigned as part of a wider reorganization under a new mayoral administration, see,
e.g., Defs.' 56.1 Stmt. ¶ 154, pursuant to which Ulon, too, would have been reassigned had she not, decided to leave. Furthermore, defendants
produce evidence that Peters and Pogoda were frustrated by Natofsky's performance. See, e.g., Defs.' 56.1 Stmt. ¶¶ 72-78. HN15 It is
"undoubtedly true" that a reorganization constitutes a legitimate non-discriminatory reason for an employment decision, Maresco v. Evans Chemetics,
Div. of W.R. Grace & Co., 964 F.2d 106, 111 (2d Cir. 1992), as does "poor work performance," Auguste, 593 F. Supp. 2d at 666. Therefore, defendants
have met their burden of production at the second stage.
Natofsky fails to meet his burden of persuasion at the third stage for the simple reason that Peters was the one to demote Natofsky, Pl.'s 56.1 Stmt. ¶
109, and there is no evidence whatsoever [*34] that Peters did so for discriminatory reasons. All that Natofsky offers in that regard is an allegation
that Peters knew of Natofsky's disability. Pl.'s 56.1 Stmt. ¶¶ 193-95. Plaintiff "has done little more than cite to his alleged mistreatment and ask the
court to conclude that it must have been related to his [disability]. This is not sufficient." Grillo v. N.Y. City Transit Auth., 291 F.3d 231, 235 (2d Cir.
2002) (internal quotation marks omitted and alterations incorporated).
In an effort to establish pretext, Natofsky argues that Peters and Pogoda manufactured the justification of poor performance only after litigation
began. Pl.'s Opp'n at 15-16. Natofsky mainly argues that his performance was in fact excellent and that criticisms thereto were not asserted until
after he sued. See Pl.'s Opp'n at 16. .This argument is refuted by contemporaneous documentary evidence of Pogoda 's frustrations with Natofsky,
see Defs.' 56.1 Stmt. ¶¶ 73-76, and testimonial evidence of Peters's frustrations with Natofsky, see Defs.' 56.1 Stmt. ¶¶ 72, 78, 9
and further
weakened by the fact that the defendants had no legal duty to inform Natofsky of their criticisms of his work. Additionally, Natofsky offers no evidence
to rebut the defendants' other non-discriminatory [*35] rationale, which is that DOI underwent a reorganization.
Natofsky further relies on allegations regarding Pogoda 's supposed fixation on the physical markers of Natofsky's disability, which Natofsky alleges
shows her discriminatory animus. Even if this were sufficient, Natofsky concedes that Pogoda was not the one who decided to demote Natofsky. See
Defs.' 56.1 Stmt. ¶ 109; Pl.'s 56.1 Stmt. ¶ 109. While Natofsky offers no argument as to why Pogoda 's alleged discriminatory intent should be
imputed to Peters, the Court sua sponte has considered two and rejected them. First, while Bickerstaff v. Vassar College, 196 F.3d 435 (2d Cir. 1999),
stated that "the impermissible bias of a single individual . . . may taint the ultimate employment decision in violation of Title VII even absent evidence
of illegitimate bias on the part of the Ultimate decision maker," id. at 450, we conclude that this statement does not apply to Rehabilitation Act cases.
The Second Circuit's language was limited to Title VII, and this Court has not found any case applying Bickerstaff to the Rehabilitation Act. What is
more, the Supreme Court has since drawn a clear distinction between cases brought under Title VII -- which by its text permits a mixed-motives
analysis -- and cases brought [*36] under other statutes with stricter language, which require a but-for analysis. Gross v. FBL Fin. Servs., Inc., 557
U.S. 167, 129 S. Ct. 2343, 174 L. Ed. 2d 119 (2009). The Rehabilitation Act falls under the latter category. Gross and Bickerstaff thus fit neatly
together: while the bias of a non-decisionmaker may be an actionable "motivating factor" under Title VII, it is not by itself enough under the
Rehabilitation Act, which requires impermissible bias to be the sole reason for the adverse employment action. Therefore, Bickerstaff has no
application here.
Second, we conclude that there exists no "cat's paw" liability in this case. "Cat's paw" liability "refers to a situation in which an employee is fired or
subjected to some other adverse employment action by a supervisor who himself has no discriminatory motive, but who has been manipulated by a
subordinate who does have such a motive and intended to bring about the adverse employment action . . . . " Vasquez v. Empress Ambulance Serv.,
Inc., 835 F.3d 267, 272 (2d Cir. 2016). Yet "an employer who, non-negligently and in good faith, relies on a false and malign report of an employee
who acted out of unlawful animus cannot, under this 'cat's paw' theory, be held accountable for or said to have been 'motivated' by the employee's
animus." Id. at 275. Vasquez, too, was a Title VII case, and we doubt that [*37] cat's paw liability could be extended into the Rehabilitation Act
context for the reasons described above. But even if it could, and even if Pogoda could be said to have acted out of unlawful animus, Natofsky
presents no evidence that Peters acted out of anything but good faith in making his demotion decision. See Defs.' 56.1 Stmt. ¶ 78 ("I had been
frustrated with his performance. I had expressed that frustration to Susan Pogoda . In addition, we were doing significant reorganization of the
agency ") Therefore, cat's paw liability does not attach here.
For these reasons, Natofsky has failed to raise a triable issue that his demotion and attendant salary cut were solely motivated by disability
discrimination as required under the Rehabilitation Act.

2. Failure to Accommodate Claim
Natofsky further alleges that the defendants failed to accommodate his disability. HN16 "An employee suing for failure to make-reasonable
accommodations must establish four elements to make a prima facie case: that (1) the plaintiff is a person with a disability under the meaning of the
Act; (2) an employer covered by the statute had notice of his disability; (3) with-reasonable accommodation, the plaintiff could [*38] perform the
essential functions of the job at issue; and (4) the-employer has refused to make such accommodations." Quadir, 2016 U.S. Dist. LEXIS 84632, 2016
WL 3633406, at *2 (internal quotation marks omitted and alterations incorporated). Natofsky must also "establish the requisite causal connection
between [the employer's] alleged failure to accommodate [his] disability and an adverse employment action." Cusack v. News Am. Mktg. In-Store,
Inc., 371 F. App'x 157, 158 (2d Cir. 2010) (citing Parker v. Sony Pictures Entm't, Inc., 260 F.3d 100, 108 (2d Cir. 2001)); see Parker, 260 F.3d at 108
(noting that this element is "frequently left unstated" because of the way that failure-to-accommodate claims are typically defended, but that it is an
element nonetheless). Finally, as with disparate treatment claims, a failure-to-accommodate claim based on a negative performance evaluation can
succeed only if the evaluation results in an adverse employment action, see Weber v. City of N.Y., 973 F. Supp. 2d 227, 261-62 (E.D.N.Y. 2013)
(collecting cases), and, under the Rehabilitation Act, only if the plaintiff's disability is the sole reason for the action, see Cheung v. Donahoe, No. 11
Civ. 0122 (ENV), 2016 U.S. Dist. LEXIS 84683, 2016 WL 3640683, at *7 n.12 (E.D.N.Y. June 29, 2016) (citing Sedor v. Frank, 42 F.3d 741, 746 (2d
Cir. 1994)).
Natofsky's failure-to-accommodate claim pertains to his proposal that, in lieu of multi-tasking on email during a meeting, his secretary could notify
him of any urgent matters. Pl.'s Opp'n at 10-12. Natofsky argues that the defendants' silence on the matter and failure to act on the proposal led to
the adverse employment [*39] action of a "lower . . . evaluation score." Pl.'s Opp'n at 12. A claim premised on Natofsky receiving a lower score than
he otherwise would have received is insufficient as a matter of law. It already strains credulity that Ulon was referring to the email-responsiveness-inmeetings issue in the Performance Evaluation. It is pure conjecture that the two out of five score under "Other Managerial Accountabilities" would
have been different absent the email-responsiveness issue. See Leighton Decl. Ex. H at 762 (other reasons for this score were that "HR and Budget
tasks have not been completed in a timely manner" and Natofsky had trouble with "[d]eference to supervisor and ability to take direction"). There is
finally no evidence from which to infer that the score -- lowered or not -- was at all causally connected to Peters's demotion decision or that Peters
even knew about it, let alone that it was the sole reason for Natofsky's demotion. "[I]t is simply not true, we want to emphasize, that if a litigant
presents an overload of irrelevant or nonprobative facts, somehow the irrelevances will add up to relevant evidence of discriminatory intent. They do
not zero plus zero is zero." Tepperwien v. Entergy Nuclear Operations, Inc., 663 F.3d 556, 572 (2d Cir. 2011) (quoting Gorence v. Eagle Food Ctrs.,
Inc., 242 F.3d 759, 763 (7th Cir. 2001)).

C. Retaliation [*40] Claims under the Rehabilitation Act

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6s39k&prid=a… 7/10

9/20/2019

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6…

HN17 "To make out a prima facie case of retaliation, an employee must show that the employee was engaged in protected activity; that the
employer was aware of that activity; that the employee suffered adverse employment decisions; and that there was a causal connection between the
protected activity and the adverse employment action." Collins v. N.Y. City Transit Auth., 305 F.3d 113, 118 (2a Cir. 2002) (internal quotation marks
and citation omitted). Natofsky alleges that he experienced retaliation for opposing discrimination in his June 2013 complaint to Gill Hearn, the May 8,
2014 Evaluation Appeal, the May 28, 2014 email, and the June 18, 2014 DCAS appeal.

1. June 2013 Complaint
First, Natofsky argues that Ulon's March 2014 Counseling Memorandum and May 2014 Performance Evaluation constituted retaliation for his June
2013 complaint to Gill Hearn regarding Natofsky's preferred vacation schedule and work arrival time. Pl.'s Opp'n at 9-10. There is no evidence
whatsoever that these events, 9 to 11 months apart, are connected, and we reject Natofsky's arguments to the contrary as entirely speculative. Had
Ulon (Natofsky's direct supervisor) wished to retaliate against Natofsky for the June 2013 complaint, she [*41] had plenty of opportunities to do so
before then.

2. Evaluation Appeal
Natofsky next alleges that he engaged in protected activity when he submitted his May 8, 2014 letter to Pogoda
Evaluation (the "Evaluation Appeal"). Pl.'s Opp'n at 21; see Leighton Decl. Ex. V.

appealing the Performance

Assuming for the purposes of this opinion that the Evaluation Appeal was a protected activity, 10
we reject the alleged retaliatory actions as
insufficiently material, separately or in the aggregate, and as lacking a but-for causal connection. See Burlington N. & Santa Fe Ry. Co. v. White, 548
U.S. 53, 68, 126 S. Ct. 2405, 165 L. Ed. 2d 345 (2006) (HN18 "[A] plaintiff must show that a reasonable employee would have found the
challenged action materially adverse, which in this context means it well might have dissuaded a reasonable worker from making or supporting a
charge of discrimination." (internal quotation marks and citations omitted)); Hicks v. Baines, 593 F.3d 159, 165 (2d Cir. 2010) ("[T]he alleged acts of
retaliation need to be considered both separately and in the aggregate, as even minor acts of retaliation can be sufficiently substantial in gross as to
be actionable." (internal quotation marks omitted)); Palmquist v. Shinseki, 689 F.3d 66, 74 (1st Cir. 2012) ("[T]he Rehabilitation Act . . . requires
retaliation to be the but-for cause of an adverse employment action in order for the plaintiff to obtain a [*42] remedy.").
Natofsky alleges a host of retaliatory actions. Pl.'s Opp'n at 22-24. He alleges that because of the Evaluation Appeal, (1) on May 20, 2014, he was
demoted; (2) on June 6, 2014, PogOda standards not made known to Natofsky beforehand in violation of protocol; and (3) Ulon's departure
impaired Natofsky's ability to mount an appeal. Nowhere did Natofsky contend, explicitly or implicitly, that Ulon issued a negative Performance
Evaluation because of discrimination. Natofsky mentioned his hearing loss not as evidence of any discrimination but only as an explanation for why
Ulon's criticism of his email response time was unwarranted. See Risco v. McHugh, 868 F. Supp. 2d 75, 111 (S.E.N.Y. 2012) (a plaintiff's request to
discuss an employer's remark about the plaintiff's disability is not protected activity) notified him that he would be reassigned from his private office
to a noisy cubicle (and effected that reassignment on June 20, 2014); (3) DOI delayed for a month the salary adjustment to which he was entitled,
when evidence suggests that the adjustment could have been made in 24 hours; (4) on September 11, 2014, Pogoda denied the Evaluation Appeal;
(5) DOI delayed a union payment initially requested on September 2, 2014; (6) on June [*43] 17, 2014, DOI cancelled his direct deposit and gave
him paper checks; (7) DOI "demand[ed] for months until he left DOI that Natofsky provide constant explanations about DOI policies and procedures
under unreasonable time constraints, under threat of insubordination and false claims about the location of personnel files," Pl.'s Opp'n at 23-24; and
(8) on July 22, 2014, Pogoda and Rivera asked him to put his title of "Human Resources Generalist" in his email signature. 11
Allegations (6), (7), and (8) do not approach the standard for materiality, either standing alone or aggregated with any other conduct. These
allegations are non-actionable "petty slights or minor annoyances that often take place at work," in the nature of "personality conflicts at work that
generate antipathy and snubbing by supervisors and co-workers," Burlington, 548 U.S. at 68 (internal quotation marks and citations omitted). They
fail to rise to the level of, e.g., "a termination of employment, a demotion evidenced by a decrease in wage or salary, a less distinguished title, a
material loss of benefits, significantly diminished material responsibilities, or other indices unique to a particular situation." Terry, 336 F.3d at 138.
As for the first five allegations, [*44] there is simply no evidence that the Evaluation Appeal was •the but-for cause of any of the actions. See Zann
Kwan v. Andalex Grp. LLC, 737 F.3d 834, 846 (2d Cir. 2013) (HN19 "'but-for' causation . . . require[s] proof that . . . the adverse action would not
have occurred in the absence of the retaliatory motive"). Defendants proffer the following legitimate, non-discriminatory reasons for the actions: (1)
Natofsky was demoted because he was a poor performer and because DOI reorganized under a new administration as discussed supra; (2) the
transfer to a cubicle was due to Natofsky's removal from his post as Director of Human Resources and Budget, Defs.' Mem. of Law at 23; Defs.' 56.1
Stmt. ¶ 145; (3) the delay in the salary adjustment was because of confusion in the new administration regarding how to process a payroll
adjustment, Defs.' 56.1 Stmt. ¶¶ 133-37; (4) the negative evaluation was upheld due to Natofsky's poor performance as discussed supra; and (5) the
delay in the union payments occurred because DOI staff was "very busy," Pl.'s 56.1 Stmt. ¶ 284. Plaintiff simply has no evidence that the actions
would not have occurred in the absence of a retaliatory motive. HN20 "The temporal proximity of events may give rise to an inference of retaliation
for the purposes [*45] of establishing a prima facie case of retaliation . . ., but without more, such temporal proximity is insufficient to satisfy
[plaintiff's] burden to bring forward some evidence of pretext." El Sayed v. Hilton Hotels Corp., 627 F.3d 931, 933 (2d Cir. 2010). Plaintiff's conclusory
statement that "the above actions reveal retaliatory motives," Pl.'s Opp'n at 24, is insufficient ipse dixit.

3. May 28 Email and June 18 DCAS Appeal
Natofsky finally alleges that he engaged in protected activity in (1) a May 28, 2014 email in which he stated, regarding his demotion and salary cut,
"By all accounts it is illegitimate and contrary to law," and (2) in his June 18, 2014 DCAS appeal, as recounted in Section I of this opinion supra.
Defendants argue that these are not "protected activities," meaning "actions taken to protest or oppose statutorily prohibited discrimination." Aspilaire
v. Wyeth Pharms., Inc., 612 F. Supp. 2d 289, 308 (S.D.N.Y. 2009). We agree.
Natofsky's complaints that his demotion and salary cut were "contrary to law" are too general to give rise to a retaliation claim under the
Rehabilitation Act. 12
HN21 "While it is unnecessary for an individual to specifically invoke the word discrimination," Lucio v. N.Y. City Dep't of
Educ., 575 Fed. Appx. 3, 6 (2d Cir. 2014), the complaint must be made in "sufficiently specific terms so [*46] that the employer is put on notice that
the plaintiff believes he or she is being discriminated against on the basis of the protected status," St. Juste v. Metro Plus Health Plan, 8 F. Supp. 3d
287, 323 (E.D.N.Y. 2014) (internal quotation marks omitted and alteration incorporated). Here, Natofsky asserts to the Court that it is "obvious" that
his phrase "contrary to law" meant disability discrimination because he is "an openly disabled employee." Pl.'s Opp'n at 21. Not only does this bare
assertion plainly fail the relevant standard, but it is especially insufficient in this case where Natofsky has also challenged the legality of the same
actions as constituting age discrimination and/or violations of the New York City Personnel Services Bulletin. HN22 "[A]mbiguous complaints that do
not make the employer aware of alleged discriminatory misconduct do not constitute protected activity." Int'l Healthcare Exch., Inc. v. Global
Healthcare Exch., LLC, 470 F. Supp. 2d 345, 357 (S.D.N.Y. 2007).
Accordingly, Natofsky has failed to state any retaliation claim under the Rehabilitation Act.

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6s39k&prid=a… 8/10

9/20/2019

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6…

D. NYHRL and NYCHRL Claims
HN23 "The district courts may decline to exercise supplemental jurisdiction over a claim . . . if the district court has dismissed all claims over which
the district court has original jurisdiction." 28 U.S.C. § 1367(c)(3). "[In the usual case in which all federal-law claims are eliminated before
trial, [*47] the balance of factors to be considered under the pendent jurisdiction doctrine -- judicial economy, convenience, fairness, and comity -will point toward declining to exercise jurisdiction over the remaining state-law claims." Pension Ben. Guar. Corp. v. Morgan Stanley Inv. Mgmt. Inc.,
712 F.3d 705, 727 (2d dr. 2013) (citations and internal quotation marks omitted). Here, we decline to exercise supplemental jurisdiction over the
state and city law claims. In particular, we note that unlike in many employment discrimination cases brought under other federal statutes, we did not
address the NYHRL claims in conjunction with the Rehabilitation Act claims because of-uncertainty in the case law as to the overlap between the
standards. See e.g., Powell v. Delta Airlines, 145 F. Supp. 3d 189, 200 n.6 (E.D.N.Y. 2015) (collecting cases). The state court is best suited to consider
that question.

III. CONCLUSION
For the foregoing reasons, we grant the defendants' motion for summary judgment as to the Rehabilitation Act claims in full. We dismiss the NYHRL
and NYCHRL claims without prejudice to their re-filing in state court. This Memorandum and Order resolves the motion pending at ECF No. 42.
SO ORDERED.
Dated: New York, New York
August 8, 2017
/s/ Naomi Reice Buchwald
NAOMI REICE BUCHWALD
UNITED STATES DISTRICT JUDGE

Footnotes

1

Michael Barbaro & David W. Chen, De Blasio Is Elected New York City Mayor In Landslide, N.Y. Times, Nov. 5, 2013,
http://www.nytimes.com/2013/11/06/nyregion/de-blasio-is-elected-new-york-city-mayor.html ; see Fed. R. Evid. 201(b) ("The court may
judicially notice a fact that is not subject to reasonable dispute"); Fed. R. Evid. 201(c) (1) ("The court may take judicial notice on its own").

2

3

Plaintiff disputes this fact but does not provide any relevant contradictory evidence. See Pl.'s 56.1 Stmt. ¶ 68.

Two other categories were considered "Not Applicable" to Natofsky. Leighton Decl. Ex. H.

4

Plaintiff dismissed with prejudice a claim against the City brought under the Employee Retirement Income Security Act of 1974, 20 U.S.C.
§§ 1001, et seq.

5

Even if he were forced to change his vacation or work schedule, a "denial of vacation time and alteration of Plaintiff's [] schedule . . . do
not rise to the level of an adverse employment action." Kaur v. N.Y. City Health & Hosps. Corp., 688 F. Supp. 2d 317, 332 (S.D.N.Y. 2010).

6

We observe that Natofsky's MarCh 25, 2013 email itself could be read to draw a distinction between a narrow email-responsiveness-inmeetings issue and a broader email responsiveness issue. Compare Leighton Decl. Ex. D, ("I suggest that if someone has an extremely urgent
or time sensitive issue, he or she contact Phyllis so that she can alert me."), with id. ("As for responding to Executive Staff emails
immediately, I believe that all my emails are responded to in a timely manner. They are answered as soon as I am able to and unless there
are extenuating circumstances, the emails are answered before the end of a day."). The statement "the emails are answered before the end
of a day" furthermore could be read as an acknowledgment that it would be fair to criticize Natofsky if he failed to answer emails within a day.

7

See, e.g., Pl.'s Opp'n at 7 ("Ulon's claim [in the evaluation] that Natofsky was 'untimely' when performing budget and human resource
functions is undermined by her email admission to Pogoda that Natofsky's units were understaffed."); Id. at 19 (in response to the
testimony of a co-worker, Shameka Boyer, that she "did not believe that Mr. Natofsky understood or valued my time because he would ask the

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6s39k&prid=a… 9/10

9/20/2019

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6…
same question of several members of my team," Defs.' 56.1-Stmt. ¶ 103, Natofsky argues, "Boyer exaggerated the number of calls and
claimed they were unprofessional but had no idea what the calls were about.").

8

Plaintiff cites to Paragraphs 35 and 36 of his 56.1 Statement for support. However, Paragraphs 35 and 36 merely say: "35. Admitted,
except that Gill Hearn requested to meet with Ulon after Natofsky expressed his concerns to Gill Hearn. 36. Disputed. Ulon and Gill Hearn
discussed Plaintiff's hearing disability during their meeting. Gill Hearn called the meeting and brought the issue of Plaintiff's hearing disability
up and explained that he had hearing issues and focusing issues and Gill Hearn told Ulon that she wanted her to be aware of these issues."

9

Ulon's Counseling Memorandum and negative Performance Evaluation also broadly support the proposition that Natofsky's performance
issues preceded his lawsuit.

10

It is doubtful that the Evaluation Appeal was a protected activity. In the Evaluation Appeal, Natofsky challenged the procedural

irregularities and the merits of the evaluation as recounted in Section I of this opinion. Natofsky's assertions therein can be summarized as
follows: (1) the Performance Evaluation was inaccurate and unsubstantiated; (2) the Performance Evaluation was based on

11

Natofsky also asserts the following allegations that we do not consider. First, he asserts that on or about June 16, 2014, DOI
"conspir[ed]" to deny his requests for assistance in lifting heavy objects, Pl.'s Opp'n at 24, but Natofsky provides no evidence that he was
actually denied the assistance. Second, he asserts that DOI delayed another union payment that he requested on December 10, 2015. The
request occurred over a year and a half after the Evaluation Appeal and a year after he left DOI; the lack of temporal proximity dooms any
attempt at a prima facie case.

12

We note, however, that the salary cut was in fact improper.

Content Type:
Terms:
Narrow By: -NoneDate and Time: Sep 20, 2019 12:03:08 p.m. EDT

About
LexisNexis®

Privacy
Policy

Terms &
Conditions

Sign
Out

Copyright © 2019 LexisNexis. All
rights reserved.

Print

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=ae79d68f-2974-4c02-9c68-aafcf805623d&ecomp=6s39k&prid=… 10/10

APPENDIX B

17-2757
Natofsky v. City of New York
17‐2757‐cv
Natofsky v. City of New York

In the

United States Court of Appeals
For the Second Circuit
________
AUGUST TERM, 2018
ARGUED: SEPTEMBER 21, 2018
DECIDED: APRIL 18, 2019
No. 17‐2757
________
RICHARD NATOFSKY,
Plaintiff‐Appellant,
v.
THE CITY OF NEW YORK, SUSAN POGODA, SHAHEEN ULON, MARK
PETERS, and JOHN and JANE DOE, said names being fictitious, the persons
intended being those who aided and abetted the unlawful conduct of the named
defendants,
Defendants‐Appellees.
________
Appeal from the United States District Court
for the Southern District of New York.
No. 14 Civ. 5498 – Naomi Reice Buchwald, Judge.
________
Before: WALKER, CHIN, Circuit Judges, and Keenan, District Judge.*

Judge John F. Keenan, of the United States District Court for the Southern
District of New York, sitting by designation.
*

Plaintiff‐Appellant Richard Natofsky appeals from a judgment of
the United States District Court for the Southern District of New York (Naomi R.
Buchwald, Judge) granting summary judgment to Defendants‐Appellees the City
of New York and certain of its employees (jointly, ʺDefendantsʺ). Natofsky, who
suffers from a hearing disability, brought this action alleging violations of
Section 504 of Rehabilitation Act of 1973 (the ʺRehabilitation Actʺ), codified at 29
U.S.C. § 794(a)‐(d), and state and city law. Natofsky claims that, during his
tenure working for the New York City Department of Investigation (the ʺDOIʺ),
he experienced several adverse employment actions because of his hearing
disability, including his eventual demotion. He also claims that the DOI failed to
accommodate his disability and retaliated against him. The district court held
that no reasonable jury could conclude that Natofsky had experienced any
adverse employment action ʺsolely by reason ofʺ his disability and further held
that Natofsky failed to establish a failure‐to‐accommodate or retaliation claim.
We hold that a plaintiff alleging an employment discrimination claim under
Section 504 of the Rehabilitation Act must show that the plaintiff’s disability was
a but‐for cause of the employer’s action, not the sole cause. We conclude,
however, that Natofsky failed to demonstrate that the adverse employment
‐2‐

decisions he experienced would not have been made but for his disability.
Accordingly, the district courtʹs award of summary judgment to Defendants is
AFFIRMED.
Judge Chin dissents in a separate opinion.
________
FOR PLAINTIFF‐APPELLANT:

FOR DEFENDANTS‐APPELLEES:

WILLIAM W. COWLES (Samuel O.
Maduegbuna, on the brief), Maduegbuna
Cooper LLP, New York, New York.
MELANIE T. WEST, Assistant Corporation
Counsel (Richard Dearing, Claude S.
Platton, Of Counsel, on the brief), for
Zachary W. Carter, Corporation Counsel of
the City of New York, New York, New
York.
________

Keenan, District Judge:
Plaintiff Richard Natofsky appeals from a judgment of the United
States District Court for the Southern District of New York granting summary
judgment to Defendants (Buchwald, J.). Natofsky served as the Director of
Budget and Human Resources at the New York City Department of Investigation
(the ʺDOIʺ) from December 2012 until March 2014, when he was demoted. He
resigned from the DOI in June 2014. Natofsky, who suffers from a hearing

‐3‐

disability, brought this action against the City of New York and three former
high‐ranking employees at the DOI alleging violations of Section 504 of
Rehabilitation Act of 1973 (the ʺRehabilitation Actʺ), codified at 29 U.S.C. §
794(a)‐(d), and state and city law. Natofsky claims that, during his tenure at the
DOI, he experienced several adverse employment actions because of his hearing
disability, including his demotion. He also claims that the DOI failed to
accommodate his disability and retaliated against him.
The district court held that no reasonable jury could conclude that
Natofsky had experienced any adverse employment action ʺsolely by reason ofʺ
his disability and further held that Natofsky failed to establish a failure‐to‐
accommodate or retaliation claim. Accordingly, the district court granted
summary judgment in favor of Defendants.
We hold that a plaintiff alleging an employment discrimination
claim under Section 504 of the Rehabilitation Act must show that the plaintiff’s
disability was a but‐for cause of the employer’s action, not the sole cause. We
conclude, however, that Natofsky failed to demonstrate that the adverse
employment decisions he experienced would not have been made but for his
disability. Thus, the district courtʹs award of summary judgment to Defendants
is AFFIRMED, albeit on different grounds.
‐4‐

BACKGROUND
The facts are summarized as follows:
A. Natofskyʹs Disability
Natofsky suffered nerve damage as an infant, leaving him with a
lasting and severe hearing impairment. He wears hearing aids and, to fully
understand what someone is saying, has to focus intently on the speaker and read
lips. He also speaks imperfectly and more slowly than the average person.
B. The DOI Hires Natofsky
The DOI hired Natofsky in December 2012 as the Director of Human
Resources and Budget with a starting salary of $125,000. His direct supervisor
was Shaheen Ulon, the then Deputy Commissioner for Administration. When
the DOI hired Natofsky, Rose Gill Hearn was the Commissioner of the DOI.
In November 2013, Bill de Blasio was elected mayor of New York
City. Shortly before the de Blasio administration came into office, Natofsky
received two awards: one for “going above and beyond” in his job performance
and one for a good record of performance. On December 31, 2013, Natofsky also
received a memo from Hearn informing him that the DOI was increasing his
salary by $4,000 for good performance.
‐5‐

At the end of 2013, as a result of the mayoral transition, Hearn left
the DOI. In February 2014, Mark Peters assumed the role of Commissioner. He
appointed Susan Pogoda as the DOIʹs Chief of Staff and Deputy Commissioner
for Agency Operations. Natofskyʹs supervisor, Ulon, remained in place.
C. Ulon’s Treatment of Natofsky
Natofsky testified that when he started at the DOI, he informed Ulon
that he had a severe hearing impairment and, consequently, might have trouble
hearing her. He also told her that she would have to face him when speaking
and that background noise made hearing more difficult for him.
Although the first three months of Natofskyʹs employment passed
without significant incident, in or about March 2013, Ulon asked Natofsky to
follow up on e‐mails more quickly. Natofsky replied that he could not respond
to emails as promptly as Ulon wanted because he had to put ʺextraordinary
effort into listeningʺ to a speaker during meetings and, thus, could not multitask
while listening in meetings. He also suggested that ʺif someone has an extremely
urgent or time sensitive issue, he or she contact [a secretary] so that she can alert
me.ʺ Ulon and Natofsky had no further discussions on the topic.
In June 2013, Ulon requested that Natofsky arrive at work between
9:00 a.m. and 10:00 a.m., as opposed to between 8:00 a.m. and 8:30 a.m., which
‐6‐

was when Natofsky usually arrived. She also requested he submit fewer leave
requests, although the requests could be for longer periods of time. Natofsky
contacted Hearn to object to Ulonʹs requests; he explained that an early arrival
allowed him to catch up on emails that he could not respond to while in
meetings, and that Ulon was not understanding of his hearing needs. Hearn
organized a meeting with Ulon and Natofsky to discuss Natofskyʹs concerns,
after which Ulon withdrew her demands.
On March 10, 2014, after Hearnʹs resignation and during Petersʹs and
Pogodaʹs tenures, Ulon wrote Natofsky a counseling memorandum addressing
his performance deficiencies. She asked him ʺto carefully review and edit the
work of [his] staff on routine HR assignments, including the new employee
welcome letters and job postingsʺ as there had been ʺnumerous, repeated
grammatical/typographical and other errors on this type of correspondence.ʺ
In April 2014, Pogoda informed Ulon that the DOI was eliminating
Ulonʹs position. Pogoda offered Ulon a job with a reduced salary in the newly
created New York Police Department Office of the Inspector General, but Ulon
declined and resigned on May 1, 2014.
On her last day, Ulon provided Natofsky with a written evaluation
of his work performance from January 2, 2012 to December 31, 2013. She rated
‐7‐

his overall performance a two out of five and gave him a ʺneeds improvementʺ
rating in seven of fourteen categories. She stated, among other complaints, that
ʺtasks have not been completed in a timely mannerʺ and ʺ[e]mail responsiveness
needs improvement.ʺ On May 8, 2014, Natofsky appealed his evaluation to
Pogoda, which she denied on September 11, 2014.
D. Pogoda and Peters’s Treatment of Natofsky
Pogoda met Natofsky for the first time on February 21, 2014.
According to Natofsky, Pogoda kept staring at his ears and observing him while
he spoke. Natofsky testified that, on or about March 6, 2014, he told Pogoda
about his hearing disability and that, in response, she shook her head and rolled
her eyes at him. Natofsky further testified that throughout March and April
2014, Pogoda was noticeably impatient when speaking to him and told him that
he needed to speak more clearly and quickly.
In March 2014, Peters had at least one meeting with Pogoda, Ulon,
and Natofsky in which Peters asked about the number of additional people he
could hire based on the budget. Ulon and Natofsky did not know the answer,
prompting Peters to express his frustration with them to Pogoda. On March 5,
2014, Pogoda emailed a DOI Associate Commissioner that ʺShaheen [Ulon] and
Richard [Natofsky] are clueless.ʺ
‐8‐

In May 2014, Pogoda wrote Natofsky informing him that he would
be demoted to Associate Staff Analyst, and that his salary would be decreased to
$68,466. Natofskyʹs position was temporarily assumed by two non‐disabled
employees: Edgardo Rivera, the new Assistant Commissioner for
Administration, and Shayvonne Nathaniel, the new Director of Administration
for the Office of the Inspector General. Peters testified that he made the decision
to demote Natofsky, although he discussed it with Pogoda.
E. Retaliation and Natofsky’s Resignation
Natofsky wrote an email to both Peters and Pogoda on May 28, 2014,
protesting their decision to demote him. On June 6, 2014, Pogoda informed
Natofsky that he would be moved from his private office to a cubicle. The
cubicle was in a high‐traffic, high‐volume area, and had been used previously by
Natofskyʹs secretary. Natofsky alerted Rivera to the loud volume, and Natofsky
was subsequently moved to a different location.
On June 18, 2014, Natofsky appealed his demotion to the Deputy
Commissioner for Administration in the Department of Citywide Administrative
Services (the ʺDCASʺ), stating that he ʺwas given no justifiable reason as to why
[his] salary was so drastically cut,ʺ and that his demotion was ʺillegitimate and
contrary to law.ʺ On June 23, 2014, DCAS wrote to Rivera regarding Natofskyʹs
‐9‐

nearly fifty percent pay cut: ʺIn general, managers should not lose more than
20% of their salary when they are reassigned to a lower managerial level or to
their permanent leave line.ʺ However, DCAS noted that a twenty percent cut
from $125,000 ‐‐ Natofskyʹs prior salary ‐‐ would result in a salary above the
maximum allowed for an Associate Staff Analyst, Natofskyʹs new position.
DCAS thus ordered Natofskyʹs salary be raised from $68,466 to $88,649 ‐‐ the
maximum permitted for Natofskyʹs new title. Natofskyʹs salary was readjusted
one month later.
In December 2014, Natofsky resigned from the DOI and began
working as an Operations and Budget Administrator at the New York City
Department of Transportation with a salary of $100,437.
F. The District Court’s Decision
Natofsky filed the complaint in this action on July 22, 2014, alleging
that the City of New York, Pogoda, Ulon, and Peters violated the Rehabilitation
Act by discriminating against Natofsky on the basis of his disability, by failing to
accommodate his hearing impairment, and by retaliating against him when he
complained about their discriminatory actions. He brought similar claims under
state and local law, although he also premised those claims on age
discrimination.
‐ 10 ‐

Following discovery, Defendants moved for summary judgment,
which, on August 8, 2017, the district court granted. Addressing Natofskyʹs
employment discrimination claims, the district court held that (1) Ulonʹs request
that Natofsky adjust his work hours and vacation time was not an adverse
employment action; (2) Natofsky failed to show that Ulon gave her negative
performance review ʺsolely because of Natofskyʹs disability,ʺ (3) Natofsky failed
to demonstrate that Peters demoted Natofsky for any discriminatory reason, and
(4) Pogodaʹs purported discriminatory animus could not be imputed to Peters.
The district court also held that Natofsky had failed to establish a failure‐to‐
accommodate or retaliation claim under the Rehabilitation Act. The district court
declined to exercise supplemental jurisdiction over Natofskyʹs state and city law
claims as it had dismissed all of the claims over which it had original jurisdiction.
This appeal followed.
DISCUSSION
I.

MOTION TO SUPPLEMENT THE RECORD
As a preliminary matter, Natofsky has moved pursuant to Federal

Rule of Appellate Procedure 10(e)(2) to supplement the record to include
deposition testimony that he failed to present to the district court. Specifically,
he seeks to include additional transcript pages from Pogodaʹs and Petersʹs
‐ 11 ‐

depositions in an attempt to show that Pogoda, along with Peters, had the
authority to demote Natofsky. Rule 10(e)(2) only permits a party to supplement
the record when that party omitted material evidence ʺby error or accident.ʺ Fed.
R. App. P. 10(e)(2). As we have previously stated, ʺRule 10(e) is not a device for
presenting evidence to this Court that was not before the trial judge.ʺ Eng v. New
York Hosp., 199 F.3d 1322 (2d Cir. 1999). Natofsky admits that he did not omit the
deposition testimony he now seeks to include because of error or mistake. Thus,
his motion to supplement the record must be denied. Defendants’ cross‐motion
to strike Natofsky’s supplementary materials and the portions of his brief that
refer to those materials is granted.
II.

MERITS

A. Legal Standard
Natofsky contests the district courtʹs award of summary judgment to
Defendants. We review de novo a grant of summary judgment, ʺconstruing the
evidence in the light most favorable to the nonmoving party and drawing all
reasonable inferences in his favor.ʺ McElwee v. Cty. of Orange, 700 F.3d 635, 640
(2d Cir. 2012). A moving party is entitled to summary judgment where the
record reveals ʺno genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.ʺ Fed. R. Civ. P. 56(a). A factual dispute
‐ 12 ‐

is genuine ʺif the evidence is such that a reasonable jury could return a verdict
for the nonmoving party.ʺ Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).
B. Employment Discrimination Claims
1. The Rehabilitation Actʹs Causation Standard for Employment
Discrimination Claims
The district court dismissed Natofsky’s employment discrimination
claims, in part, because Natofsky could not demonstrate that impermissible bias
was ʺthe sole reasonʺ for any of the adverse employment actions he experienced.
Natofsky v. City of New York, No. 14 CIV. 5498 (NRB), 2017 WL 3670037, at *12
(S.D.N.Y. Aug. 8, 2017). On appeal, Natofsky argues that the district court erred
in relying on a sole‐cause standard because the Rehabilitation Act makes a
distinction between employment discrimination claims, which require courts to
adopt the more lenient causation standard used in the Americans with
Disabilities Act (ʺthe ADAʺ), and other types of discrimination claims.
The Rehabilitation Act provides that no individual shall be subject to
discrimination in any program or activity receiving federal financial assistance
ʺsolely by reason of her or his disability.ʺ 29 U.S.C. § 794(a) (emphasis added).
This language differs from the ADA, which makes it unlawful for an employer to
discriminate against an individual ʺon the basis of disability.ʺ 42 U.S.C. § 12112(a)

‐ 13 ‐

(emphasis added). Although the two acts appear to have different causation
standards, Congress amended the Rehabilitation Act in 1992 to add a provision
which states that ʺ[t]he standards used to determine whether this section has
been violated in a complaint alleging employment discrimination . . . shall be the
standards applied under title I of the Americans with Disabilities Act of 1990.ʺ
29 U.S.C. § 794(d).
Whether § 794(d) requires courts to use the ADAʹs causation
standard for claims alleging employment discrimination under the Rehabilitation
Act is an issue of first impression in this Circuit. The two principal cases cited by
Defendants are not dispositive. In Sedor v. Frank, we affirmed the dismissal of a
plaintiffʹs Rehabilitation Act employment discrimination claim because the
plaintiff failed to show that his disability was ʺthe only cause of the discharge‐
triggering conduct.ʺ 42 F.3d 741, 746 (2d Cir. 1994). In Borkowski v. Valley Central
School District, we also accepted the premise that to avoid summary judgment a
plaintiff must ʺintroduce evidence sufficient to permit a factfinder to conclude
that she was denied tenure solely because of her disabilities.ʺ 63 F.3d 131, 143
(2d Cir. 1995). In both Sedor and Borkowski, however, the parties accepted that a
plaintiff had to demonstrate that any adverse employment action was taken
ʺsolelyʺ because of the plaintiffʹs disability. Neither party raised, and this Circuit
‐ 14 ‐

never addressed, the issue of whether § 794(d) altered the causation standard for
employment discrimination claims brought under the Rehabilitation Act.
We now hold that when a plaintiff alleges an employment
discrimination claim under the Rehabilitation Act, the causation standard that
applies is the same one that would govern a complaint alleging employment
discrimination under the ADA. The text of the statute, § 794(d), requires
applying the ADA causation standard to employment discrimination claims
asserted under the Rehabilitation Act. It is an established canon of construction
that a specific provision ʺcontrols over one of more general application.ʺ Gozlon‐
Peretz v. United States, 498 U.S. 395, 407 (1991). Subsection 794(d) is, in our
opinion, more specific than § 794(a) and, therefore, displaces the causation
standard expressed in § 794(a) in the employment discrimination context. In
other words, § 794(a) establishes a general causation standard that applies to
most discrimination claims brought under the Rehabilitation Act, see e.g., Regʹl
Econ. Cmty. Action Program v. City of Middletown, 294 F.3d 35 (2d Cir. 2002)
(applying the ʺsolely by reason ofʺ causation language to a housing
discrimination case), superseded by statute on other grounds, ADA Amendments of
2008, Pub. L. No. 110–325, 122 Stat. 3553, but § 749(d) removes employment

‐ 15 ‐

discrimination claims from the application of § 794(a)ʹs general causation
standard and mandates the application of the ADAʹs causation standard. 1
The other cases cited by Defendants in defense of their position do
not persuade us that our reading of the statute should be otherwise. Parker v.
Columbia Pictures Industries was an employment discrimination case brought
under the ADA, and any discussion of the Rehabilitation Act was dicta. 204 F.3d
326, 337 (2d Cir. 2000). Henrietta D. v. Bloomberg was a case based on the
defendantsʹ failure to provide plaintiffs with public benefits, not an employment
discrimination case. 331 F.3d 261, 272 (2d Cir. 2003). Thus, any discussion of
differences between the ADA and Rehabilitation Act in that case is irrelevant

We recognize that our reading of these two provisions conflicts with the Fifth
Circuitʹs holding that § 794(d) does not modify § 794(a)ʹs causation standard in the
employment discrimination context. See Soledad v. U.S. Depʹt of Treasury, 304 F.3d 500,
505 (5th Cir. 2002). In Soledad, the Fifth Circuit found the text of § 794(a) to be more
specific than the text of § 794(d). Id. As stated above, we disagree with this conclusion
because § 794(d) states the causation standard that applies to the general universe of
Rehabilitation Act discrimination cases, and § 794(d), which came later in time, speaks
specifically to the causation standard that applies in employment discrimination cases
brought under the Rehabilitation Act. The Fifth Circuit also found dispositive the fact
that Congress ʺchose not to repeal the ʹsolely by reason ofʹ language of §794(a) when it
amended the statute,ʺ thereby indicating that ʺCongress did not intend to adopt the
ADA standard of causation with the § 794(d) amendment.ʺ Id. This reasoning is
unpersuasive. Establishing § 794(d) as a carve‐out for employment discrimination
claims would not require Congress to amend the language of § 794(a)ʹs general
causation standard because that standard continues to govern all discrimination claims
brought under the Rehabilitation Act except employment discrimination claims.
1

‐ 16 ‐

here. In Doe v. Board of Education of Fallsburgh Central School District, we stated
that the Rehabilitation Act does not permit mixed‐motive suits. 63 F. Appʹx 46,
48 (2d Cir. 2003). This is not the same as stating that the causation standard of
the Rehabilitation Act for employment discrimination claims is a ʺsolely by
reason ofʺ standard. Finally, Defendants rely on Lewis v. Humboldt Acquisition
Corp., but the argument addressed there was whether the ADA imported the
ʺsolelyʺ causation standard from § 794(a). 681 F.3d 312, 315 (6th Cir. 2012) (en
banc). The Sixth Circuit declined to hold that ʺbecause ofʺ under the ADA meant
a plaintiff must show that his disability was the ʺsoleʺ cause of the adverse
employment action. Id. This is an entirely different question than whether the
Rehabilitation Act contains a carve‐out for employment discrimination claims
pursuant to § 794(d) and renders Lewis irrelevant to the instant issue.
2. The ADAʹs Causation Standard for Employment Discrimination Claims
Having concluded that the Rehabilitation Act incorporates the
ADAʹs causation standard for employment discrimination claims, we must now
clarify the ADA’s causation standard. Title I of the ADA prohibits employers
from ʺdiscriminat[ing] against a qualified individual on the basis of disability in
regard to . . . the hiring, advancement, or discharge of employees.ʺ 42 U.S.C. §
12112(a) (emphasis added). Historically, this Circuit has applied a ʺmixed‐
‐ 17 ‐

motiveʺ test to ADA claims, ʺunder which disability [need only be] one
motivating factor in [the employerʹs] adverse employment action but [need not
be] its sole but‐for cause.ʺ Parker, 204 F.3d at 336. When we decided Parker, the
ADA proscribed discriminatory acts that were engaged in ʺbecause ofʺ a
disability, instead of ʺon the basis of.ʺ See 42 U.S.C. § 12112(a) (1991).
Natofsky argues that, because the Rehabilitation Act incorporates
the ADAʹs causation standard for employment discrimination claims, the district
court erred by not applying a mixed‐motive standard to his discrimination
claims in accordance with Parker. Natofsky argues that he presented sufficient
evidence for a factfinder to conclude that his disability was a ʺmotivating factorʺ
in the adverse employment actions taken against him. Accordingly, he argues,
the district courtʹs decision must be reversed.
Defendants argue that if the Rehabilitation Act does indeed
incorporate by reference the ADAʹs causation standard, then the standard to be
applied to Natofskyʹs employment discrimination claims must be that ʺbut forʺ
the disability, the adverse action would not have been taken. According to
Defendants, the Supreme Court decisions Gross v. FBL Financial Services, Inc., 557
U.S. 167 (2009), and University of Texas Southwestern Medical Center v. Nassar, 570
U.S. 338 (2013), effectively overrule this Circuitʹs decision in Parker. Defendants
‐ 18 ‐

argue that Natofsky has failed to demonstrate that his disability was a but‐for
cause of any adverse employment action taken against him, and that the district
courtʹs decision must be affirmed. For the following reasons, we agree with
Defendants.
The ʺmixed‐motiveʺ test originates from Title VII, which prohibits
employment discrimination ʺbecause ofʺ an individualʹs race, color, religion, sex,
or national origin. 42 U.S.C. § 2000e‐2(a)(1). In 1989, the Supreme Court in Price
Waterhouse v. Hopkins read the prohibition against acting ʺbecause ofʺ a
discriminatory motive to mean that an employer cannot take any illegal criterion
into account. 490 U.S. 229, 240 (1989). Thus, a defendant would be liable under
Title VII if a plaintiff could demonstrate that discrimination was a motivating
factor in the defendantʹs adverse employment action. Id. at 244. A defendant,
however, could avoid all liability if it could prove it would have taken the same
action regardless of any impermissible consideration. Id.
In 1991, Congress amended Title VII and determined that ʺan
unlawful employment practice is established when the complaining party
demonstrates that race, color, religion, sex, or national origin was a motivating
factor for any employment practice, even though other factors also motivated the
practice.ʺ 42 U.S.C. § 2000e‐2(m) (emphasis added). Congress disagreed that an
‐ 19 ‐

employer could avoid all liability by proving it would still have taken the same
adverse action in the absence of discriminatory motivation. Instead, where an
employer could demonstrate that it would have taken the adverse action even in
the absence of discriminatory motivation, Congress denied the plaintiff damages
and limited the plaintiffʹs remedies to ʺdeclaratory relief, injunctive relief . . . ,
and attorneyʹs fees and costs.ʺ 42 U.S.C. § 2000e‐5(g)(2)(B). Even though Price
Waterhouse and the subsequent 1991 Congressional amendments dealt only with
Title VII, the majority of circuit courts, including this one, held that the mixed‐
motive burden‐shifting framework applied equally to other anti‐discrimination
statutes that employed the ʺbecause ofʺ causation language, including, prior to
2008, the ADA. See Parker, 204 F.3d at 336–37.
In 2009, the Supreme Court in Gross addressed whether Title VIIʹs
ʺmotivating factorʺ standard applied outside of the Title VII context to claims
brought under the Age Discrimination in Employment Act (the “ADEA”), which
prohibits employers from ʺdiscriminat[ing] against any individual . . . because of
such individualʹs age.ʺ 27 U.S.C. § 623(a)(1); see also Gross, 557 U.S. at 174. The
Court held that it did not because ʺ[u]nlike Title VII, the ADEAʹs text does not
provide that a plaintiff may establish discrimination by showing that age was
simply a motivating factor.ʺ Gross, 557 U.S. at 174. Furthermore, the Court
‐ 20 ‐

found that Congress must have omitted the language intentionally because, at
the time it added §§ 2000e‐2(m) and 2000e‐5(g)(2)(B) to Title VII, ʺCongress . . .
contemporaneously amended the ADEA in several ways.ʺ Id. Examining the
text of the ADEA, the Court concluded that the words ʺbecause ofʺ mean ʺthat
age was the ʹreasonʹ that the employer decided to act.ʺ Id. at 176. Thus, the
Court held that a plaintiff must prove that age was the but‐for cause of the
employerʹs adverse decision ‐‐ not just a motivating factor. Id.
In Nassar, the Supreme Court revisited the principle defined in
Gross: that the text of an anti‐discrimination statute must expressly provide for a
ʺmotivating factorʺ test before that test can be applied. The Court held that even
though Title VII permits mixed‐motive causation for claims based on the
personal characteristics of race, color, religion, sex, or national origin (i.e.,
“status‐based” discrimination), it does not permit mixed‐motive causation for
retaliation‐based claims. Nassar, 570 U.S. at 360. The Court based its holding on
the text and structure of Title VII. Id. It noted that § 2000e‐2(m), which contains
the mixed‐motive causation provision, ʺmentions just the . . . status‐based
[factors]; and . . . omits the final two, which deal with retaliation.ʺ Id.; see also 42
U.S.C. § 2000e‐2(m). It also noted that ʺCongress inserted [the ʹmixed‐motiveʹ
test] within the section of the statute that deals only with [the status‐based
‐ 21 ‐

factors], not the section that deals with retaliation claims or one of the sections
that apply to all claims of unlawful employment practices.ʺ Id. Because,
according to the Court, Title VII has a ʺdetailed structure,ʺ the Court could
conclude that Congress knew how to word the mixed‐motive provision to
encompass the anti‐retaliation section and intentionally chose not to do so. Id.
As a result, Title VII retaliation ʺmust be proved according to traditional
principles of but‐for causation, not the lessened causation test stated in § 2000e‐
2(m).ʺ Id.
Gross and Nassar dictate our decision here. The ADA does not
include a set of provisions like Title VIIʹs § 2000e‐2(m) (permitting a plaintiff to
prove employment discrimination by showing that discrimination was a
ʺmotivating factorʺ in the adverse decision) and § 2000e‐5(g)(2)(B) (limiting the
remedies available to plaintiffs who can show that discrimination was a
ʺmotivating factorʺ but not a but‐for cause of the adverse decision). There is no
express instruction from Congress in the ADA that the ʺmotivating factorʺ test
applies. Moreover, when Congress added § 2000e‐2(m) to Title VII, it
ʺcontemporaneously amendedʺ the ADA but did not amend it to include a
ʺmotivating factorʺ test. See Pub. L. No. 102‐166, §§ 109, 315; see also Gross, 557
U.S. at 174. We, therefore, join the conclusion reached by the Fourth, Sixth, and
‐ 22 ‐

Seventh Circuits that the ADA requires a plaintiff alleging a claim of
employment discrimination to prove that discrimination was the but‐for cause of
any adverse employment action. See Gentry v. E. W. Partners Club Mgmt. Co. Inc.,
816 F.3d 228, 235–36 (4th Cir. 2016); Lewis, 681 F.3d at 321; Serwatka v. Rockwell
Automation, Inc., 591 F.3d 957, 963–64 (7th Cir. 2010).
Natofsky argues that Gross does not determine the outcome of this
case because, unlike the ADEA, the ADA indirectly incorporates Title VIIʹs
mixed‐motive standard by reference in its ʺEnforcementʺ provision, which states:
The powers, remedies, and procedures set forth in sections 2000e‐4, 2000e‐
5, 2000e‐6, 2000e‐8, and 2000e‐9 of [Title VII] shall be the powers, remedies,
and procedures this subchapter provides to the Commission, to the
Attorney General, or to any person alleging discrimination on the basis of
disability in violation of any provision of this chapter. . . .
42 U.S.C. § 12117(a). Notably absent from this provision, however, is § 2000e‐
2(m), which establishes Title VIIʹs mixed‐motive test. See Gentry, 816 F.3d at 234
(ʺHowever, while [42 U.S.C. § 12117(a)] incorporates Title VIIʹs ʹEnforcement
provisionsʹ in § 2000e–5, it does not incorporate the ʹUnlawful employment
practicesʹ in § 2000e–2, including § 2000e–2(m), which establishes mixed motive
employment practices as unlawful.ʺ).
Natofsky points out that the ADA incorporates § 2000e‐5(g)(2)(B),
which cross‐references § 2000e‐2(m). This cross‐cross‐reference, however, cannot
‐ 23 ‐

be used to create new substantive liability under the ADA as section 2000e‐
5(g)(2)(B) deals exclusively with the remedies available to plaintiffs who have
first proven a violation under § 2000e‐2(m), i.e., a violation based on individualʹs
ʺrace, color, religion, sex, or national origin.ʺ 42 U.S.C. § 2000e‐2(m). Section
2000e‐2(m) makes no mention of disability. An ADA plaintiff will never be able
to invoke § 2000e‐5(g)(2)(B) because, as the Fourth and Sixth Circuits have
explained, an ADA plaintiff can only invoke Title VIIʹs enforcement provisions
after first ʺalleg[ing] a violation of the ADA itself ‐‐ a violation of ʹthis chapter.ʹʺ
Gentry, 816 F.3d at 235 (quoting 42 § U.S.C. 12117(a)); Lewis, 681 F.3d at 319–20.
As stated above, the ADAʹs text does not mention that a violation occurs when
discrimination is the ʺmotivating factorʺ in an employerʹs decision.
Natofsky argues that our interpretation renders the ADAʹs
incorporation of § 2000e‐5 superfluous. This is not so. The majority of the other
provisions in § 2000e‐5 clearly apply to the ADA. See Lewis, 681 F.3d at 230
(ʺ[2000e‐5] contains more than a dozen other provisions detailing procedures
that remain applicable under the ADA.ʺ) By incorporating § 2000e‐5, which
contains all of Title VIIʹs ʺEnforcement provisions,ʺ into the ADA, we can assume
that Congress was aware that some of those provisions would apply only to Title
VII cases. See id. (ʺIn incorporating a wide range of Title VII enforcement
‐ 24 ‐

procedures and remedies into the ADA, it is hardly surprising that some of those
provisions . . . apply by their terms only to Title VII cases.ʺ).
Having determined that the ADA does not incorporate Title VIIʹs
mixed‐motive standard, the remaining question is what precisely ʺon the basis of
disabilityʺ means. 42 U.S.C. § 12112(a). In Gross, the Court held that ʺbecause ofʺ
‐‐ the language used in the ADA prior to the 2008 amendments ‐‐ meant ʺby
reason of: on account ofʺ and required a showing of but‐for causation. Gross, 557
U.S. at 176 (quoting 1 Websterʹs Third New Intʹl Dictionary 194 (1966)). The
Court cited to a prior case, Safeco Insurance Co. of America v. Burr, which stated
that ʺ[i]n common talk, the phrase ʹbased onʹ indicates a but‐for causal
relationship.ʺ Gross, 557 U.S. at 176 (quoting Safeco Ins. Co. of Am. v. Burr, 551
U.S. 47, 63, 64 n.14 (2007)). We find no reason to hold that there is any
meaningful difference between ʺon the basis of,ʺ ʺbecause of,ʺ or ʺbased on,ʺ
which would require courts to use a causation standard other than ʺbut‐for.ʺ We
conclude that ʺon the basis ofʺ in the ADA requires a but‐for causation standard.
Further, nothing in the legislative history of the ADA indicates that
ʺon the basis ofʺ was supposed to lower the causation standard for employment
discrimination claims below the traditional but‐for standard. The ADA
originally prohibited discrimination ʺagainst a qualified individual with a
‐ 25 ‐

disability because of the disability of such individual.ʺ Pub. L. No. 101‐336, § 102
(1990). The ADA Amendments Act of 2008 changed this language, prohibiting
discrimination ʺagainst a qualified individual on the basis of disability.ʺ Pub. L.
No. 110‐325, § 5 (2008). Legislative history suggests that Congress intended this
change to return the ʺADAʹs focusʺ to ʺwhere it should be – the question of
whether the discrimination occurred, not whether the person with a disability is
eligible in the first place.ʺ 154 Cong. Rec. S9626 (Sept. 26, 2008) (statement of Sen.
Reid) (2008); see also 154 Cong. Rec. S8840‐01 (Sept. 16, 2008) (Senate Statement of
Managers) (ʺ[L]ower court cases have too often turned solely on the question of
whether the plaintiff is an individual with a disability rather than the merits of
discrimination claims . . . .ʺ). Thus, as stated by the Fourth Circuit, ʺ[t]he
legislative history suggests the language was changed to decrease the emphasis
on whether a person is disabled, not to lower the causation standard.ʺ Gentry,
816 F.3d at 236.
3. Application of ADAʹs But‐For Causation Standard to Natofskyʹs Claims
Natofsky bases his employment discrimination claims on Pogoda
and Petersʹs decision to demote him, and Ulonʹs conduct when she was his
immediate supervisor. Natofsky has failed to demonstrate that discrimination
based on his disability was the but‐for cause of any of these actions.
‐ 26 ‐

a. Demotion Claim
Natofsky claims that his demotion was caused by unlawful
discrimination based on his hearing disability. The core of his claim is that
Pogoda, not Peters, demoted him with discriminatory intent.
In his statement of material facts in opposition to Defendants’
motion for summary judgment, Natofsky admitted that Peters, not Pogoda,
executed his demotion.2 Natofsky argues, however, that the City may still be
held liable for Petersʹs act because Pogodaʹs discriminatory intent can be imputed
to Peters through a ʺCatʹs Pawʺ theory of liability.
i. Catʹs Paw
Under a Catʹs Paw theory of liability, a discriminatory motive may
be imputed to a final decision‐maker if the decision‐makerʹs adverse
employment action was proximately caused by a subordinate who had a
discriminatory motive ʺand intended to bring about the adverse employment

On appeal, Natofsky tries to argue that Pogoda was the ultimate decision‐
maker and points to deposition testimony that could possibly suggest as much.
Natofsky, however, never presented that testimony to the district court. Because we
have denied Natofsky’s motion to supplement the record, we may not rely on that
testimony now.
2

‐ 27 ‐

action.ʺ Vasquez v. Empress Ambulance Serv., Inc., 835 F.3d 267, 272 (2d Cir. 2016)
(quoting Cook v. IPC Intʹl Corp., 673 F.3d 625, 628 (7th Cir. 2012)). Natofsky
argues that Pogodaʹs animus towards Natofskyʹs disability was the proximate
cause of Petersʹs decision to demote Natofsky.
The Supreme Court and this Circuit have permitted plaintiffs to use
a Catʹs Paw theory of liability in anti‐discrimination statutes requiring the more
lenient mixed‐motive causation standard. See Staub v. Proctor Hosp., 562 U.S. 411,
422 (2011); Vasquez, 835 F.3d at 272–73. Neither the Supreme Court nor this
Circuit, however, has addressed whether the same theory would apply to
statutes requiring plaintiffs to demonstrate that discriminatory intent was the
but‐for cause of an adverse employment action. The district court held that Catʹs
Paw liability does not apply to Rehabilitation Act cases under the assumption
that the stricter ʺsolelyʺ causation standard applies. Natofsky, 2017 WL 3670037,
at *12.
While the question of whether Catʹs Paw liability applies outside of
the mixed‐motive context is an important one, we decline to decide it now.
Defendants never responded on appeal to Natofskyʹs application of Catʹs Paw
liability to the Rehabilitation Act, and, as a consequence, Defendants have
waived any objection to proceeding under this theory. We will therefore assume
‐ 28 ‐

that Natofsky can pursue a Catʹs Paw theory and, thus, any discriminatory intent
harbored by Pogoda can be imputed to Peters.
ii. Liability
Even assuming Pogodaʹs discriminatory intent can be imputed to
Peters, Natofsky failed to present the district court with evidence from which a
reasonable factfinder could conclude that, but for his hearing disability, Natofsky
would not have been demoted. There was ample evidence that Pogoda and
Peters had reason to (and did) think that Natofsky’s performance was deficient
and demoted him on that basis. First, Pogoda noted in March 2014 her view that
Natofsky was ʺclueless.ʺ Second, that same month, Natofsky failed to provide
Peters with information regarding staffing and budgeting at the DOI, two areas
under Natofskyʹs purview. Third, there was a new administration in office that
was restructuring the department in which Natofsky worked. Defendants
presented evidence that other employees had been asked to leave or were
transferred from their positions, including Natofskyʹs immediate supervisor,
Ulon. We conclude that ʺconstruing the evidence in the light most favorableʺ to
Natofsky and ʺdrawing all reasonable inferences in his favor,ʺ no reasonable
juror could conclude that Natofsky would have retained his position but for his
disability. McElwee, 700 F.3d at 640 (2d Cir. 2012).
‐ 29 ‐

We also note that, drawing all inferences in Natofskyʹs favor, no
reasonable factfinder could conclude that the explanation of poor performance
proffered by Pogoda and Peters was pretextual. Pogodaʹs March 2014 email
calling Natofsky ʺclueless,ʺ Ulonʹs negative performance review on or about
May 1, 2014, and Natofsky’s failure to answer Petersʹs staffing and budgetary
inquiries are contemporaneous evidence of Natofskyʹs poor performance. That a
prior administration had praised Natofskyʹs work is not enough to establish that
the new administration could not have concluded that he was underperforming.
See Viola v. Philips Med. Sys. of N. Am., 42 F.3d 712, 717–18 (2d Cir. 1994)
(concluding that a first‐time negative performance review, although given on the
eve of dismissal, was not suspect).
b. Claims Based on Ulonʹs Conduct
Natofsky also argues that Ulonʹs denial of his preferred work hours
and vacation time, as well as the negative performance review she gave him,
constitute adverse employment actions, and that those actions would not have
occurred but for Ulonʹs discriminatory intent. For the reasons set forth below,
we agree with the district courtʹs decision to grant summary judgment to
Defendants on these claims.

‐ 30 ‐

First, fatal to Natofskyʹs claims is his failure to provide evidence of
Ulonʹs discriminatory intent. Natofsky points to Ulonʹs complaints about his
timeliness in responding to emails as evidence of discriminatory intent. He
attributes any delay in responding to emails a result of his inability to reply to
emails during meetings, which he was unable to do because of his hearing
disability. Natofsky, however, points to no evidence that Ulonʹs critique of his
email responsiveness was based specifically on Natofsky’s failure to respond to
emails during meetings, as opposed to a more general critique of his timeliness
in responding to emails. Therefore, criticism of his email practices provides no
basis to conclude that Ulon had discriminatory intent.
Second, Ulonʹs initial demands that Natofsky change his work hours
and vacation time did not adversely affect him because she dropped her
demands after meeting with Hearn and Natofsky. Furthermore, it is unlikely
that these workplace changes, had they even occurred, would count as actionable
adverse actions. See Davis v. New York City Depʹt of Educ., 804 F.3d 231, 235
(2d Cir. 2015) (for an employerʹs action to be ʺmaterially adverse with respect to
the terms and conditions of employment,ʺ it must be ʺmore disruptive than a
mere inconvenience or an alteration of job responsibilitiesʺ (internal quotation
marks omitted)); see e.g., Kaur v. New York City Health & Hosps. Corp., 688 F. Supp.
‐ 31 ‐

2d 317, 332 (S.D.N.Y. 2010) (ʺ[D]enial of vacation time and alteration of Plaintiffʹs
lunch schedule, taken alone, do not rise to the level of an adverse employment
action.ʺ).
Finally, Natofsky’s argument regarding Ulonʹs negative
performance review cannot survive summary judgment because, as stated above,
there is no evidence of Ulonʹs discriminatory intent. In addition, there is no
evidence that either Pogoda or Peters relied upon Ulonʹs review in deciding to
demote Natofsky, and a negative performance review, without any showing of a
negative ramification, cannot constitute an adverse employment action.
Fairbrother v. Morrison, 412 F.3d 39, 56–57 (2d Cir. 2005) (surveying cases and
concluding that a negative performance evaluation cannot be considered an
adverse employment action without evidence that the evaluation ʺaltered . . .
compensation, benefits, or job titleʺ), abrogated on other grounds by Burlington N. &
Santa Fe Ry. Co. v. White, 548 U.S. 53 (2006).
C. Failure‐to‐Accommodate Claim
Natofsky argues that Defendants are liable for violating the
Rehabilitation Act because they failed to accommodate his hearing disability.
Specifically, Natofsky argues that the DOI failed to accommodate his request to

‐ 32 ‐

have a secretary alert him to urgent emails during meetings. We affirm the
district courtʹs judgment against Natofsky on this claim.
To establish a prima facie case of discrimination based on an
employerʹs failure to accommodate a disability, under either the ADA or the
Rehabilitation Act, a plaintiff must demonstrate that ʺ(1) [the plaintiff] is a person
with a disability under the meaning of [the statute in question]; (2) an employer
covered by the statute had notice of his disability; (3) with reasonable
accommodation, plaintiff could perform the essential functions of the job at issue;
and (4) the employer has refused to make such accommodations.ʺ McBride v. BIC
Consumer Prods. Mfg. Co., 583 F.3d 92, 97 (2d Cir. 2009) (internal quotation marks
omitted); see also Lyons v. Legal Aid Soc., 68 F.3d 1512, 1515 (2d Cir. 1995) (stating
that the elements needed to demonstrate a failure‐to‐accommodate claim under
either the ADA or the Rehabilitation Act are the same). In addition, a plaintiff
must show ʺthe connections between (1) the failure to accommodate a disability,
(2) the performance deficiencies, and (3) the adverse employment action.ʺ Parker
v. Sony Pictures Entmʹt, Inc., 260 F.3d 100, 108 (2d Cir. 2001) (emphasis in
original).
Natofsky has failed to provide evidence from which a reasonable
juror could conclude that (1) the DOIʹs failure to accommodate his disability by
‐ 33 ‐

providing secretarial alerts while he was in meetings resulted in the negative
performance review he received from Ulon, or (2) Ulonʹs negative performance
review ultimately resulted in Natofskyʹs demotion. As previously stated, there is
no evidence that Ulon was referring to Natofskyʹs inability to respond to emails
during meetings in her performance review. Nor as noted earlier is there any
evidence that Pogoda or Peters considered Ulonʹs review when they decided to
demote Natofsky. Accordingly, we find that the district court correctly granted
summary judgment for Defendants on this claim.
D. Retaliation Claim
Natofsky asks us to vacate the district courtʹs dismissal of his
retaliation claims. He argues that (1) Ulon retaliated against him for his
complaints to Hearn, (2) he was demoted in retaliation for appealing Ulonʹs
negative performance review, and (3) the DOI subjected him to a slew of
retaliatory actions ‐‐ including moving him to a noisy cubicle and delaying his
salary adjustment ‐‐ after he contested his demotion. We agree with the district
court that Natofsky failed to provide sufficient support for any claim for
retaliation under the Rehabilitation Act.
ʺ[T]he elements of a retaliation claim under either [the Rehabilitation
Act] or the ADA are (i) a plaintiff was engaged in protected activity; (ii) the
‐ 34 ‐

alleged retaliator knew that plaintiff was involved in protected activity; (iii) an
adverse decision or course of action was taken against plaintiff; and (iv) a causal
connection exists between the protected activity and the adverse action.ʺ Weixel
v. Bd. of Educ. of City of New York, 287 F.3d 138, 148 (2d Cir. 2002) (internal
quotations omitted). ʺA causal connection in retaliation claims can be shown
either ʹ(1) indirectly, by showing that the protected activity was followed closely
by discriminatory treatment, or through other circumstantial evidence such as
disparate treatment of fellow employees who engaged in similar conduct; or (2)
directly, through evidence of retaliatory animus directed against the plaintiff by
the defendant.ʹʺ Littlejohn v. City of New York, 795 F.3d 297, 319 (2d Cir. 2015)
(quoting Gordon v. New York City Bd. of Educ., 232 F.3d 111, 117 (2d Cir. 2000)).
Natofsky’s first claim of retaliation is against Ulon. He argues that
Ulon wrote the March 10, 2014 counseling memo and May 1, 2014 negative
performance review in retaliation for Natofskyʹs decision to complain about Ulon
to Hearn. He argues that the protected activity ‐‐ the decision to speak to Hearn ‐
‐ was followed closely by Ulonʹs adverse employment actions. This argument,
however, must fail because Ulonʹs actions occurred in 2014, almost a year after
the meeting with Hearn ‐‐ too long a period of time for a jury to be able to infer a
causal connection. See Harrison v. U.S. Postal Serv., 450 F. Appʹx 38, 41 (2d Cir.
‐ 35 ‐

2011) (concluding a period of ʺseveral monthsʺ between when a plaintiff engaged
in a protected activity and when he suffered an adverse employment action was
too long to support the inference of a causal connection). Natofsky argues that
Ulon stalled in retaliating against him because she was waiting until Hearn left
the DOI. Natofsky, however, provides no evidence for this assertion, and,
therefore, summary judgment was appropriate for his claim of retaliation based
on Ulonʹs conduct.
Natofsky next argues that Pogoda and Peters retaliated against him
for his decision to appeal Ulonʹs negative performance review on May 8, 2014 by
demoting him. This claim fails for two reasons. First, appealing a negative
performance review is not a protected activity that can give rise to a retaliation
claim. ʺProtected activityʺ is ʺaction taken to protest or oppose statutorily
prohibited discrimination.ʺ Cruz v. Coach Stores, Inc., 202 F.3d 560, 566 (2d Cir.
2000), superseded on other grounds by N.Y.C. Local L. No. 85. The record shows
that Natofsky was not protesting discrimination in his appeal but offering a
defense of why he may have been slow in responding to emails. Second, the
record reveals that the decision to reorganize the department and demote
Natofsky was made in March or April 2014, in advance of Ulonʹs performance
review and Natofskyʹs decision to appeal that review. Thus, Natofsky’s
‐ 36 ‐

demotion could not have been in retaliation for his appeal of Ulonʹs performance
review. The district court properly awarded Defendants summary judgment on
this claim.
Natofskyʹs final retaliation claim relating to the challenges he made
to his demotion cannot survive summary judgment because those challenges also
do not constitute protected activity. Natofsky challenged his demotion first by
sending the May 28, 2014 email to Peters and Pogoda, and then by appealing to
DCAS on June 18, 2014. Neither gave any specific indication that Natofsky was
protesting discrimination. Natofskyʹs May 28, 2014 email and DCAS appeal
stated that his demotion was ʺillegitimate and contrary to law.ʺ This statement is
too general to indicate that Natofsky was protesting his demotion as
discriminatory and, therefore, cannot sustain a retaliation claim. Lucio v. New
York City Depʹt of Educ., 575 F. Appʹx 3, 6 (2d Cir. 2014) (ʺWhile it is unnecessary
for an individual to specifically invoke the word discrimination when
complaining in order to alert her employer to her protected activity, there must
be some basis to conclude that the employer was aware that the plaintiff engaged
in protected activity.ʺ). Thus, we affirm the district court’s grant of summary
judgment on Natofskyʹs retaliation claims.

‐ 37 ‐

CONCLUSION
Accordingly, for the reasons set forth above, the judgment of the
district court is AFFIRMED. The motion to supplement the record on appeal is
hereby DENIED, and the cross‐motion to strike supplementary materials and
any reference to those materials in Natofsky’s brief is GRANTED.

‐ 38 ‐

CHIN, Circuit Judge, dissenting:
The district court granted summary judgment dismissing plaintiff‐
appellant Richard Natofkyʹs claims on the basis that a reasonable jury could not
find that his disability was a but‐for cause of the employerʹs actions. The
majority affirms. While I agree that a but‐for causation standard applies to the
retaliation claim, I believe that the discrimination and failure‐to‐accommodate
claims brought under the Rehabilitation Act are governed by the same standard
that the courts have uniformly applied for more than two decades ‐‐ the
motivating‐factor standard. Accordingly, I concur in the dismissal of the
retaliation claim, but I dissent from the dismissal of the discrimination and
failure‐to‐accommodate claims.
I agree with the majority that the Rehabilitation Act incorporates the
causation standard of the Americans with Disabilities Act (the ʺADAʺ). The issue
is whether the ADA continues to use a motivating‐factor standard, even in light
of the 2008 Amendments to the ADA and the Supreme Courtʹs decisions in Gross
v. FBL Fin. Servs., Inc., 557 U.S. 167 (2009), and Univ. of Tex. Sw. Med. Ctr. v.
Nassar, 570 U.S. 338 (2013). I respectfully disagree with the majorityʹs conclusion
that a but‐for standard now governs ADA and Rehabilitation Act claims.

First, the reasoning in Gross does not apply to ADA claims. In Gross,
the Supreme Court analyzed which causation standard governs claims under the
Age Discrimination in Employment Act (the ʺADEAʺ) ‐‐ not claims under the
ADA. The Court cautioned that ʺwe ʹmust be careful not to apply rules
applicable under one statute to a different statute without careful and critical
examination.ʹʺ Gross, 557 U.S. at 174 (quoting Fed. Express Corp. v. Holowecki, 552
U.S. 389, 393 (2008)). The Court then noted that Title VII did not control its
construction of the ADEA because ʺTitle VII is materially different with respect
to the relevant burden of persuasion.ʺ Id. at 173. Importantly, the ADA
incorporates the powers, remedies, and procedures of Title VII, see 42 U.S.C.
§ 12117(a) (incorporating ʺ[t]he powers, remedies, and procedures set forth in
sections 2000e‐4, 2000e‐5, 2000e‐6, 2000e‐8, and 2000e‐9ʺ), whereas the ADEA
incorporates the powers, remedies, and procedures of the Fair Labor Standards
Act, see 29 U.S.C. § 626(b) (ʺThe provisions of this chapter shall be enforced in
accordance with the powers, remedies, and procedures provided in sections
211(b), 216 (except for subsection (a) thereof), and 217 of this title, and subsection
(c) of this section.ʺ). Hence, different rules apply to the ADA and Rehabilitation
Act than to the ADEA.

2

Moreover, in Gross, the Supreme Court held that ADEA claims are
governed by the but‐for standard ‐‐ not the motivating‐factor standard ‐‐ because
(1) the Court had ʺnever heldʺ that Title VIIʹs motivating‐factor standard applies
to ADEA claims, and (2) ʺCongress neglected to add such a [motivating‐factor]
provision to the ADEA when it amended Title VII to add §§ 2000e‐2(m) and
2000e‐5(g)(2)(B), even though it contemporaneously amended the ADEA in
several ways.ʺ Id. at 174‐75.
These rationales do not apply to the ADA. The motivating‐factor
standard has governed ADA claims for more than two decades. See, e.g., Parker
v. Columbia Pictures Indus., 204 F.3d 326, 337 (2d Cir. 2000); Pedigo v. P.A.M.
Transp., Inc., 60 F.3d 1300, 1301 (8th Cir. 1995). Furthermore, when Congress
amended Title VII in 1991 to include the motivating‐factor language, see Civil
Rights Act of 1991, Pub. L. No. 102‐166, §§ 107, 109, 105 Stat. 1071, 1076‐78 (1991),
it incorporated the motivating‐factor language into the ADA, as the ADA
explicitly refers to and adopts the enforcement provisions of Title VII, including
§ 2000e‐5, see 42 U.S.C. § 12117(a). We, therefore, cannot draw the same inference
from Congressʹs actions as the Supreme Court did in Gross for the ADEA. See
also Lewis v. Humboldt Acquisition Corp., 681 F.3d 312, 324 (6th Cir. 2012) (Clay, J.,

3

dissenting) (explaining why the rationale of Gross does not apply to the ADA); id.
at 326 (Stranch, J., dissenting) (providing context for the enactment of the ADA
and the Civil Rights Act of 1991 and arguing that the motivating‐factor standard
applies). But see Gentry v. E. W. Partners Club Mgmt. Co. Inc., 816 F.3d 228, 234‐35
(4th Cir. 2016) (applying the rationale from Gross to the ADA); Lewis, 681 F.3d at
318‐19 (en banc) (same); Serwatka v. Rockwell Automation, Inc., 591 F.3d 957, 962
(7th Cir. 2010) (same).
Second, the 2008 Amendments show that Congress wanted to retain,
not eliminate, the motivating‐factor standard. The primary purpose of the 2008
Amendments was to ʺreinstat[e] a broad scope of protection to be available
under the ADAʺ because several Supreme Court cases had narrowed that scope
of protection. ADA Amendments Act of 2008, Pub. L. No. 110‐325, § 2(b), 122
Stat. 3553, 3554 (2008). It is not clear, then, why, as the majority suggests, the
2008 Amendments would warrant deviating from the motivating‐factor standard
we, and our sister circuits, applied for years before the amendments. See, e.g.,
Head v. Glacier Nw. Inc., 413 F.3d 1053, 1065 (9th Cir. 2005); Parker, 204 F.3d at 337;
Baird ex rel. Baird v. Rose, 192 F.3d 462, 470 (4th Cir. 1999); Foster v. Arthur
Andersen, LLP, 168 F.3d 1029, 1033‐34 (7th Cir. 1999); McNely v. Ocala Star‐Banner

4

Corp., 99 F.3d 1068, 1076 (11th Cir. 1996); Katz v. City Metal Co., 87 F.3d 26, 33 (1st
Cir. 1996); Buchanan v. City of San Antonio, 85 F.3d 196, 200 (5th Cir. 1996); Pedigo,
60 F.3d at 1301.
Moreover, Congress knew that courts applied the motivating‐factor
standard in evaluating ADA claims. It could have changed the ADAʹs causation
standard with the 2008 Amendments, but it did not do so. ʺ[W]e have
recognized that Congressʹ failure to disturb a consistent judicial interpretation of
a statute may provide some indication that Congress at least acquiesces in, and
apparently affirms, that interpretation.ʺ Monessen Sw. Ry. Co. v. Morgan, 486 U.S.
330, 338 (1988) (internal quotation marks and alteration omitted). The fact that
Congress amended the ADA to reject an interpretation of the ADA that was not
aligned with Congressʹs intent demonstrates that it likely would have done so for
the ADAʹs causation standard if the courts, in applying the motivating‐factor
standard, were applying the wrong standard. Its decision not to amend the ADA
indicates its at least implicit acceptance of the motivating‐factor standard.
Third, the language of the ADA confirms that the motivating‐factor
standard still applies. While the ADA does not explicitly incorporate § 2000e‐2,
it does incorporate § 2000e‐5, and § 2000e‐5(g)(2)(B) specifically refers to the

5

motivating factor standard. See 42 U.S.C. § 12117(a).1 If we interpret the ADA to
apply the but‐for standard of causation, that provision would be rendered
irrelevant and superfluous. See, e.g., Natʹl Assʹn of Mfrs. v. Depʹt of Def., 138 S. Ct.
617, 632 (2018) (ʺThe Court is obliged to give effect, if possible, to every word
Congress used.ʺ (internal quotation marks omitted)); Rubin v. Islamic Republic of
Iran, 138 S. Ct. 816, 824 (2018) (ʺ[A] statute should be construed so that effect is
given to all its provisions, so that no part will be inoperative or superfluous, void
or insignificant.ʺ (internal quotation marks omitted)). But see Lewis, 681 F.3d at
319‐20 (concluding that ʺthe ADAʹs incorporation of § 2000e‐5 [is not]
meaninglessʺ because it contains ʺdozens of other provisions . . . that remain
applicable under the ADAʺ). Moreover, there is nothing to indicate that
Congress chose not to incorporate § 2000e‐2 into the ADA with the intent that the
stricter causation standard would apply. Indeed, if that had been its intent, it
would have omitted § 2000e‐5(g)(2)(B), and it surely would have explained why

In relevant part, § 2000e‐5(g)(2)(B) provides that where an individual proves a violation of
§ 2000e‐2(m) (ʺan unlawful employment practice is established when the complaining party demonstrates
that race, color, religion, sex, or national origin was a motivating factor for any employment practice,
even though other factors also motivated the practiceʺ), the relief is limited if the ʺrespondent
demonstrates that the respondent would have taken the same action in the absence of the motivating
factor.ʺ But see Lewis, 681 F.3d at 320 (explaining that ʺ§ 2000e–5 does not direct judges to apply the
substantive motivating factor standard from § 2000e–2(m); it permits them only to provide a remedy for
plaintiffs who prove a violation under section 2000e–2(m),ʺ which ʺsays nothing about disability statusʺ
(internal quotation marks and alterations omitted)).
1

6

it was making such a significant change. See also id. at 325 (Clay, J., dissenting)
(explaining why a but‐for standard imposes a greater burden on individuals than
Congress intended).
Finally, the ADAʹs legislative history makes clear that Congress
intended claims under the ADA to continue to have the same causation standard
as claims under Title VII. When Congress enacted the ADA, it intended for the
ADAʹs remedies to ʺparallelʺ Title VIIʹs remedies because ʺ[t]he remedies should
remain the same, for minorities, for women, and for persons with disabilities.
No more. No less.ʺ 136 Cong. Rec. H2615 (daily ed. May 22, 1990) (statement of
Rep. Edwards). A House Report explained that ʺif the powers, remedies and
procedures change in [T]itle VII of the 1964 Act, they will change identically
under the ADA for persons with disabilities.ʺ H.R. Rep. No. 101‐485, pt. 3, at 48
(1990), as reprinted in 1990 U.S.C.C.A.N. 445, 471. Therefore, ʺ[b]y retaining the
cross‐reference to [T]itle VII, the Committeeʹs intent [wa]s that the remedies of
[T]itle VII, currently and as amended in the future, will be applicable to persons
with disabilities.ʺ Id. (emphasis added); see also Lewis, 681 F.3d at 322‐23 (Clay, J.,
dissenting) (explaining why the ADAʹs legislative history supports applying a
motivating‐factor standard).

7

For those reasons, I believe the ADAʹs causation standard continues
to be the motivating‐factor standard. Because the Rehabilitation Act incorporates
the ADAʹs causation standard, the motivating‐factor standard applies to
Natofskyʹs claims. Under the motivating‐factor standard, Natofsky ʺmust show
only that disability played a motivating roleʺ in defendantsʹ decision to take
adverse employment action; Natofsky ʺneed not demonstrate that disability was
the sole cause of the adverse employment action.ʺ Parker, 204 F.3d at 337.
Here, Natofsky has put forth evidence that Pogoda and Ulon were at
least motivated in part by Natofskyʹs disability. First, Natofsky presented
evidence that Pogoda ‐‐ whose discriminatory intent can be imputed to Peters,
see Vasquez v. Empress Ambulance Serv., Inc., 835 F.3d 267, 272‐73 (2d Cir. 2016)
(applying catʹs paw theory of liability to a claim evaluated under the mixed‐
motive causation standard) ‐‐ fixated on the physical markers of his hearing
disability, shook her head in disgust and rolled her eyes after Natofsky told her
about his hearing disability, demanded he speak faster, and otherwise ridiculed
him for his speech. Second, as evidence of Ulonʹs discriminatory animus,
Natofsky presented evidence of two conversations during which his disability
was discussed: his exchange with Ulon about email responsiveness and Hearnʹs

8

conversation with Ulon regarding Natofskyʹs hours and vacation request. There
was other evidence as well, including inexplicably harsh treatment: when new
management came in, Natofsky quickly fell from a highly compensated, highly‐
evaluated supervisor to a poorly‐evaluated generalist making just over half his
prior salary and confined to what had been his former assistantʹs cubicle.
ʺ[C]onstruing the evidence in the light most favorableʺ to Natofsky and ʺdrawing
all reasonable inferences in his favor,ʺ a reasonable juror could conclude that
Natofskyʹs disability was a motivating factor in the adverse employment actions
against him and that the reasons stated by Pogoda, Peters, and Ulon were
pretextual. McElwee v. Cty. of Orange, 700 F.3d 635, 640 (2d Cir. 2012).
Accordingly, I would vacate the district courtʹs award of summary
judgment dismissing Natofskyʹs discrimination and failure‐to‐accommodate
claims and remand for those claims to be considered under the correct legal
standard, and I respectfully dissent to that extent.

9

APPENDIX C

Case 17-2757, Document 146, 07/09/2019, 2603508, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
9th day of July, two thousand nineteen.
________________________________________
Richard Natofsky,
Plaintiff - Appellant,
ORDER
v.

Docket No: 17-2757

The City of New York, Susan Pogoda, Shaheen Ulon,
Mark Peters, John/Jane Doe, said names being fictitious,
the persons intended being those who aided and abetted
the unlawful conduct of the named defendants,
Defendants - Appellees.
_______________________________________
Appellant, Richard Natofsky, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

